<html>
<title> - COMBATING TERRORISM: A PROLIFERATION OF STRATEGIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





           COMBATING TERRORISM: A PROLIFERATION OF STRATEGIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2003

                               __________

                           Serial No. 108-20

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

87-702              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Advisor
                Thomas Costa, Professional Staff Member
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 3, 2003....................................     1
Statement of:
    Decker, Raymond, Director, Defense Capabilities and 
      Management Team, U.S. General Accounting Office, 
      accompanied by Stephen L. Caldwell, Assistant Director, 
      U.S. General Accounting Office.............................    12
    Gilmore, James S., III, chairman, Advisory Panel to Assess 
      the Domestic Response Capabilities for Terrorism Involving 
      Weapons of Mass Destruction; Michael E. O'Hanlon, senior 
      fellow, foreign policy studies, the Sydney Stein, Jr. 
      Chair, the Brookings Institution; John Newhouse, senior 
      fellow, Center for Defense Information; and Andrew F. 
      Krepinevich, executive director, Center for Strategic and 
      Budgetary Assessments......................................    58
Letters, statements, etc., submitted for the record by:
    Decker, Raymond, Director, Defense Capabilities and 
      Management Team, U.S. General Accounting Office, prepared 
      statement of...............................................    15
    Gilmore, James S., III, chairman, Advisory Panel to Assess 
      the Domestic Response Capabilities for Terrorism Involving 
      Weapons of Mass Destruction, prepared statement of.........    62
    Krepinevich, Andrew F., executive director, Center for 
      Strategic and Budgetary Assessments, prepared statement of.   148
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     7
    Newhouse, John, senior fellow, Center for Defense 
      Information, prepared statement of.........................   119
    O'Hanlon, Michael E., senior fellow, foreign policy studies, 
      the Sydney Stein, Jr. Chair, the Brookings Institution, 
      prepared statement of......................................   102
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
           COMBATING TERRORISM: A PROLIFERATION OF STRATEGIES

                              ----------                              


                         MONDAY, MARCH 3, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, Murphy, Janklow, 
Kucinich, and Bell.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D., senior policy advisor; 
Thomas Costa, professional staff member; Robert A. Briggs, 
clerk; Mackenzie Eaglen, fellow; David Rapallo, minority 
counsel; and Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Combating Terrorism: A Proliferation of 
Strategies,'' is called to order.
    Almost 2 years before the attacks of September 11, 2001, 
the Advisory Panel to Assess Domestic Response Capabilities for 
Terrorism Involving Weapons of Mass Destruction, far more 
widely and succinctly known as the Gilmore Commission, 
concluded the United States lacked a coherent, functional 
national strategy to guide disparate counterterrorism efforts. 
In testimony before the subcommittee on March 26, 2001, the 
Commission's vice chairman said, ``a truly comprehensive 
national strategy will contain a high-level statement of 
national objectives coupled logically to a statement of the 
means used to achieve these objectives.''
    The Bush administration inherited a loose collection of 
Presidential directives and law enforcement planning documents 
used as a strategic framework, but that fragile construct 
collapsed with the World Trade Center on September 11th. The 
brutal nature of the terrorist threat shattered naive 
assumptions terrorists would be deterred by geographic, 
political, or moral borders.
    A new strategic paradigm was needed. Containment, 
deterrence, reaction and mutually assured destruction no longer 
served to protect the fundamental security interest of the 
American people. The threat demands detection, prevention, and 
a proactive, preemptive approach to self-defense.
    To meet the demands of a new, more dangerous world, the 
executive branch has promulgated strategy statements 
articulating national goals for various aspects of the war on 
terrorism. Subordinate to the overarching national security and 
military strategies, other plans guide efforts to secure the 
homeland, combat terrorism abroad, integrate military response 
capabilities, combat weapons of mass destruction, stanch 
terrorist funding, secure cyberspace and protect critical 
national infrastructure.
    A strategy famine has given way to a variable feast of 
high-level statements of national objectives and tactics to 
defeat the multifaceted foe that is global terrorism. Today we 
ask how these strategies link to form the national 
comprehensive policy recommended by the Gilmore Commission. Are 
they dynamic to meet changing adaptable threats? Do they guide 
the application of finite resources to achieve critical 
objectives? And how do we know if they are working?
    Just as reorganizing the Federal Government to 
counterterrorism will take time, reorienting the U.S. long-term 
strategic mindset will require sustained effort and hard 
choices. Some fundamental elements of a fully integrated 
preparedness and response strategy are not yet evident. State 
officials and local first responders are still waiting to know 
how much will be expected of them in the event of a major 
incident. What capabilities in terms of training and equipment 
should be resident at the local level? When and how should 
Federal capabilities be brought to bear?
    To help us begin our consideration of these important 
questions today, we welcome two panels of distinguished 
witnesses, including former Governor James Gilmore, chairman of 
the advisory commission that has been and remains on the 
forefront of the national debate on combating terrorism. In 
future hearings, we will hear from administration 
representatives and others to address specific elements of the 
strategic bulwark against terrorism.
    We welcome all our witnesses and look forward to their 
testimony. At this point, the Chair would recognize the 
distinguished gentleman, our ranking member, Mr. Kucinich.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7702.001
    
    [GRAPHIC] [TIFF OMITTED] T7702.002
    
    Mr. Kucinich. Thank you very much, Mr. Chairman. I would 
like to extend a warm welcome to you and everyone connected 
with the work of our committee and to let you know that I look 
forward to working with you in this session.
    Mr. Shays. Likewise.
    Mr. Kucinich. As you know, Mr. Chairman, we worked together 
in the last Congress to conduct oversight over the 
administration's efforts to secure our country against 
terrorist attacks. After the awful events of September 11th, it 
became more evident than ever that we needed a rational 
approach to protecting the American people.
    Officials from the U.S. General Accounting Office, who are 
appearing before us again today, testified that the No. 1 step 
in crafting a national strategy was a comprehensive threat and 
risk assessment. Before we reorganized ourselves or allocated 
additional funding, we needed to understand and to prioritize 
the true threats to our Nation.
    Mr. Chairman, on October 15, 2001, you and I joined 
together and we were accompanied by our counterparts on the 
full committee, Chairman Burton and Ranking Member Waxman, and 
the four of us signed a letter to President Bush. We urged the 
President to conduct exactly this type of assessment. In the 
spirit of bipartisanship, we moved forward and asked the 
President to use the opportunity of Governor Ridge's 
appointment to carefully examine all the threats we face.
    Unfortunately, President Bush was not responsive in regard 
to our request. He did not respond to the committee. The 
administration moved ahead with the new Department of Homeland 
Security and produced a new budget, all without taking the 
initial step of completing a comprehensive threat, risk, and 
vulnerability assessment.
    What is the result of this? Today's hearing is aptly 
entitled, ``A Proliferation of Strategies.'' The administration 
has been proliferating national security strategies, nearly a 
dozen by my count, without any logical or demonstrable sense of 
priorities.
    This lack of logic and the lack of priorities is 
exemplified by the administration's push for a preemptive 
attack on Iraq. The administration has not been able to make 
any kind of a credible connection between Iraq and al Qaeda 
with regard to September 11th, nor has the administration 
produced credible evidence connecting Iraq and September 11th. 
Yet the administration is moving ahead with the preemptive war 
despite the fact that Iraq poses no imminent threat to the 
United States.
    This rush to war, in the face of international opposition, 
threatens to alienate the United States from the international 
community at the very moment we need international cooperation 
to root out terror. By pushing our Nation and the world to the 
verge of a historic preemptive attack, we are making America 
far more dangerous as a place to live.
    I would suggest that whatever strategies we are discussing 
here must take into account the impact of any preemptive action 
by the United States against Iraq, because it's quite likely 
that such action, according to reports I've heard, Mr. 
Chairman, from the FBI that were published in the New York 
Times, it's quite likely such action could result in more 
terrorist attacks being directed against this country. So 
that's why it's important we have this hearing.
    This weekend's capture of Khalid Sheik Mohammed, the 
suspected mastermind behind numerous al Qaeda attacks by 
Pakistan, the capture that was effected with the help of 
Pakistan, once again demonstrates the great importance of 
international coalitions and cooperation in our ongoing efforts 
to root out the terrorists. The administration's rush to a 
historic preemptive war against Iraq, I believe, threatens to 
isolate our country and alienate allies that we need in our 
efforts to disrupt, capture, and dismantle the al Qaeda 
network.
    I thank the Chair.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T7702.003

[GRAPHIC] [TIFF OMITTED] T7702.004

[GRAPHIC] [TIFF OMITTED] T7702.005

    Mr. Shays. At this time, the Chair would recognize Mr. 
Janklow, former Governor of South Dakota, and then we will 
recognize Mr. Murphy from Pennsylvania. This is our first 
hearing and we're delighted to welcome both of them. Mr. 
Janklow, you have the floor.
    Mr. Janklow. Thank you, Mr. Chairman, very much. And I am 
going to be very brief in my comments.
    As I had an opportunity to review the strategies that were 
put forth by staff, I believe there were eight in number, it 
becomes really clear as it's been suggested, that we have had a 
proliferation of strategies enunciated and, at the same time, 
they are interrelated in certain respects, overlapping in 
certain respects. What I think we do lack is one clear overall 
strategy.
    Now that's really not surprising. Notwithstanding political 
comments any of us want to make, this President was President 
for 9 months when the World Trade Center was attacked and we 
were subjected to the greatest terrorist attack in the history 
of this country. As a matter of fact, I believe it was the War 
of 1812 the last time that America, in a substantive way, had 
enemy soldiers within our borders operating.
    Be that as it may, this administration inherited no 
strategic plans at all; that occasionally cruise missiles would 
be launched against some site in Afghanistan at an empty camp 
to enunciate some kind of announcement. But other than that, 
there really wasn't any clear cohesive strategy. But the 
important thing is now we have thousands of dead people. We 
have enormous damage to individuals' lives, survivors' lives. 
We have trauma the likes of which this country has never known 
before. We have untold damage to our economy totaling in the 
hundreds of billions of dollars. And terrorists have figured 
out they have the ability to bring America virtually to a 
standstill.
    Five or six anthrax letters stopped the U.S. Postal 
Service, and, for all practical purposes, most of the 
governments in America, from being able to function for a 
period of time. The airlines were shut down. America's economy, 
for all practical purposes, was shut down.
    And so, Mr. Chairman, I look forward to your leadership and 
working with you and the other Members of the Congress, the 
administration, and the American people to do what we can to 
come up with an overall program, laying out the road map in a 
very clear--in very enunciated ways, specifically setting forth 
what it is that we are trying to accomplish and the objectives 
by which we mean to accomplish that.
    I realize when I say that, it is not unlike a play book for 
a football game; that you go into the football game with a play 
book and by the time the second play is called, the other team 
intercepts your ball and your play book is back to the drawing 
board for modification.
    But we in this country have about 18,000 law enforcement 
units that have never before had to work together in an 
absolutely coordinated way. In my State of South Dakota, which 
is one of the least populated in the Union and one of the 
largest--as I tell people in my congressional district, it is 
just slightly smaller than Great Britain in terms of size; we 
have 534 fire departments within the State of South Dakota, 
over 250 of which are in communities of less than 1,000 people. 
So we can begin to understand the magnitude on a national scale 
of what it is that we have to deal with and how we have to 
address it.
    So, Mr. Chairman, I am pleased that you have been selected 
to be our chairman, with respect to this subcommittee, and look 
forward to working with you and others as we move forward to 
try and get accomplishments done at the speed of light to 
better protect and secure the American people in this country.
    Mr. Shays. Thank you very much.
    At this time we will call on Mr. Murphy from Pennsylvania.
    Mr. Murphy. Thank you, Mr. Chairman. I first of all commend 
you for calling this hearing. It is very important that if 
there's anything that the Government Reform Committee should be 
doing during this time, it is looking at ways to reform our 
strategies on national security; to make them more efficient, 
both in local emergency services, as Congressman Janklow just 
alluded, but also at the State and national level. We have to 
be united in our message, united in our strategy, and then 
united in our means of implementing that strategy during a time 
when people will--and certainly the terrorists will look for 
ways to divide us. They are counting on our short memory of 
events, although they are burned in our memories forever. They 
are counting on Americans to be fickle about their memories and 
counting on us to be divisive in our politics as they watch the 
news, and they mistake freedom of speech for disunity.
    There may be times when this committee and other committees 
may have people who do not agree, but I want them to also know 
a message that as we iron out ways of making these strategies 
more efficient, as we'll hear from testimony today, these are 
geared toward working in a united way to take care of these 
problems quickly and efficiently. So I look forward to the 
hearing, Mr. Chairman. Thank you.
    Mr. Shays. I thank the gentleman.
    We will call our first panel. Our panel is Mr. Raymond 
Decker, Director, Defense Capabilities and Management Team, 
U.S. General Accounting Office, accompanied by Stephen 
Caldwell, Assistant Director of Defense Capabilities and 
Management. As is our practice, we will ask you gentlemen to 
stand and we will swear you in.
    [Witnesses sworn.]
    Mr. Shays. I thank the gentlemen. Note for the record that 
our witnesses have responded in the affirmative. I think we 
only have one statement. That's from you Mr. Decker, correct?
    Mr. Decker. That's correct.
    Mr. Shays. And just let the record note, Mr. Decker, we 
have worked with you for many years and we appreciate very 
sincerely the work of the GAO and specifically your work. Thank 
you very much. And, Mr. Caldwell, nice to have you here as 
well.
    I am going to put the clock for 5 and rotate it another 5, 
so you will have 10, and we will go from there.

STATEMENT OF RAYMOND DECKER, DIRECTOR, DEFENSE CAPABILITIES AND 
MANAGEMENT TEAM, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
     STEPHEN L. CALDWELL, ASSISTANT DIRECTOR, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Mr. Decker. Mr. Chairman and members of the subcommittee, I 
appreciate the opportunity to be here today to participate in 
this important hearing on national strategies relating to 
combating terrorism.
    More than 2 years ago, in July 2000, GAO testified before 
this subcommittee on ``Combating Terrorism: The Need for a 
Strategy.'' We had just completed our initial review of the 
Attorney General's Five Year Interagency Counterterrorism and 
Technology Crime Plan, the closest document to a national 
strategy at that time, and commented on its weaknesses. We 
stated at that time, there should be only one national strategy 
to combat terrorism. We indicated that additional planning 
guidance providing more detailed information for specific 
functions should be integrated under this one overarching 
national strategy in a clear hierarchy.
    At that time, Mr. Chairman, you were sponsoring a bill to 
establish an office that would, among other duties, coordinate 
a single integrated strategy.
    A lot has happened since then. My testimony today is based 
upon GAO's comprehensive body of work in the area of combating 
terrorism over the past 6 years at the request of this 
subcommittee and others. In our past work, we have stressed the 
importance of a national strategy to combat terrorism which 
should serve as a foundation for defining what needs to be 
accomplished, identifying approaches to achieve desired 
outcomes, and determining how well the goals are being met. It 
should not only define the roles and missions of the Federal 
Government and agencies, but also those of State and local 
government, the private sector and international community. 
Finally, a national strategy must incorporate sound management 
principles promoting information sharing and coordination in 
order to guide effective implementation.
    Sir, I'll focus my comments on two areas, the current 
national strategies and their implementation.
    During the last year or so, the administration has 
developed several new national strategies relating to combating 
terrorism. This constellation of strategies generally replaces 
the 1998 Attorney General's Five Year Plan I mentioned earlier. 
We have identified at least 10 national strategies relating to 
terrorism; 9 of the 10 are approximately 14 months or younger; 
3 are less than a month old. As you can see from the chart on 
my right, which is also on page 11 of the written statement, we 
have attempted to portray the complex relationships among these 
various strategies based on our review of the strategies and 
discussions with executive branch officials. Please note that 
the National Drug Control Strategy isn't shown on the chart 
since its relationship with combating terrorism is mentioned in 
only one or two areas within that strategy. Also, we are 
unaware of any national intelligence strategy to combat 
terrorism tailored to support all of the strategies, although 
we recognize intelligence and related activities as crucial for 
their success.
    Overall, the strategies do generally form a national 
framework for combating terrorism. Collectively they provide 
goals and objectives on broad issues of national security and 
how combating terrorism and homeland security fit into that 
larger realm. In addition, they offer more detailed goals and 
objectives in specific functional areas to include military 
operations, weapons of mass destruction, money laundering, 
cyber security, and the protection of physical infrastructure. 
Although we have not fully evaluated whether the framework 
these strategies form is cohesive and comprehensive, there are 
some positive indications. The strategies are organized in a 
general hierarchy; some share themes, and some explicitly refer 
to the other strategies. They are more comprehensive in 
breadth, coverage, and actions needed to combat terrorism than 
the Attorney General's Five Year Plan. And consistent with our 
earlier recommendations, the strategies include not just the 
Federal, but State, local, private, and international partners.
    Since the administration has not adopted a single 
overarching national strategy to combat terrorism and has 
stated that the National Security and the National Homeland 
Security Strategy are mutually supporting documents, it's 
difficult to ascertain the real hierarchy within its framework 
that may complicate implementation plans. For example, since 
different Federal agencies have a role in many of these 
strategies, some confusion in setting priorities and developing 
coordination mechanisms may exist without a clear understanding 
of how the strategies are integrated within a tiered framework.
    Therefore, we believe that a better defined hierarchy among 
the various strategies is needed. One approach that better 
explains the precedence and the interrelationships of the 
strategies might be with a basic pyramid configuration. 
Although some blocks might be of different shape and size, a 
pyramid depiction is somewhat easier to understand for all 
participants.
    For example, might the National Security Strategy of the 
United States occupy the top-most position on the pyramid and 
perhaps the National Homeland Security Strategy and National 
Strategy to Combat Terrorism sharing a tier below.
    Mr. Chairman, allow me to briefly comment on 
implementation. These national strategies, individually or 
collectively, no matter how well crafted, will not prevent 
terrorism. However, these documents when implemented through 
intergovernmental, interagency, and international programs that 
are seamlessly integrated, effectively coordinated, 
appropriately resourced, and smartly led will make the 
difference in the war on terrorism. While these strategies must 
direct and guide programs, it should be noted that the 
strategies reflect a host of preexisting initiatives that must 
be reviewed to ensure proper focus and alignment with newly 
established goals, objectives, and actions. A critical element 
for successful implementation is the need for clearly defined 
roles and responsibilities for all players. If the Federal, 
State, local, private, and international participants have a 
thorough understanding of the roles, responsibilities, and 
capabilities of all involved, then coordination through 
established mechanisms is greatly facilitated. Finally, leaders 
at all levels must ensure that the implementation process is 
effectively and efficiently carried out to achieve goals and 
objectives within the time line set. Using essential tools like 
risk management to guide decisionmaking and performance 
indicators to gauge progress, leaders will be better able to 
focus attention and adjust resources to move closer to goals 
and end states.
    Due to the serious consequences of failure, GAO has 
designated the implementation of homeland security as a high-
risk Federal area. This is a product that clearly delineates 
that challenge. Sir, the leadership challenge is daunting but 
not impossible.
    In closing, we believe the framework formed by these 
strategies, if effectively implemented with the full 
involvement and commitment of all partners, will result in 
significant progress toward our stated goals on the war on 
terrorism. Congress will play an increasingly important role in 
addressing the challenges facing this process. In addition to 
recently passed legislation, reorganizing the Federal 
Government to combat terrorism, and the appropriation of 
significant funds to support the war on terrorism, Congress 
will need to provide keen oversight through hearings like today 
to ensure all programs are well designed, developed, and 
executed to accomplish the national goals. Our success on 
terrorism depends on the leadership and actions of the Federal 
Government and its domestic and international partners.
    Sir, this concludes my prepared statement and I will be 
pleased to respond to any questions.
    Mr. Shays. Thank you very much, Mr. Decker.
    [The prepared statement of Mr. Decker follows:]

    [GRAPHIC] [TIFF OMITTED] T7702.006
    
    [GRAPHIC] [TIFF OMITTED] T7702.007
    
    [GRAPHIC] [TIFF OMITTED] T7702.008
    
    [GRAPHIC] [TIFF OMITTED] T7702.009
    
    [GRAPHIC] [TIFF OMITTED] T7702.010
    
    [GRAPHIC] [TIFF OMITTED] T7702.011
    
    [GRAPHIC] [TIFF OMITTED] T7702.012
    
    [GRAPHIC] [TIFF OMITTED] T7702.013
    
    [GRAPHIC] [TIFF OMITTED] T7702.014
    
    [GRAPHIC] [TIFF OMITTED] T7702.015
    
    [GRAPHIC] [TIFF OMITTED] T7702.016
    
    [GRAPHIC] [TIFF OMITTED] T7702.017
    
    [GRAPHIC] [TIFF OMITTED] T7702.018
    
    [GRAPHIC] [TIFF OMITTED] T7702.019
    
    [GRAPHIC] [TIFF OMITTED] T7702.020
    
    [GRAPHIC] [TIFF OMITTED] T7702.021
    
    [GRAPHIC] [TIFF OMITTED] T7702.022
    
    [GRAPHIC] [TIFF OMITTED] T7702.023
    
    [GRAPHIC] [TIFF OMITTED] T7702.024
    
    [GRAPHIC] [TIFF OMITTED] T7702.025
    
    [GRAPHIC] [TIFF OMITTED] T7702.026
    
    [GRAPHIC] [TIFF OMITTED] T7702.027
    
    Mr. Shays. Just for the benefit of new Members here--and 
first let me welcome Congressman Chris Bell from Texas, a new 
member to the committee. We are delighted that you are a member 
of this committee. I think you will find the work of this 
committee quite meaningful and helpful to your district and our 
country. At this time, Mr. Bell, I would be happy to recognize 
if you would like to make an opening statement.
    Mr. Bell. Thank you very much, Mr. Chairman. I very much 
appreciate the opportunity to serve with you on this committee. 
And I thank you for calling this hearing on what has obviously 
become one of our Nation's top priorities, finding a way to 
combat terrorism and securing the homeland. And I would like to 
thank Mr. Decker and the others who will be testifying here 
today and offer themselves to answer our questions.
    I have some questions about the plan, but I will hold off 
on those until it becomes my time, but I thank you for the 
opportunity. And thanks for your welcoming remarks as well.
    Mr. Shays. What we usually do in this committee is 10 
minutes if we have two or three members. But what we'll do is 
first do a 5-minute round and then we'll come back and if 
someone needs to go over the 5 minutes or wants to do a second 
round, we'll do another round. And I have a rusty staff that 
didn't turn on the clock for you, Mr. Decker, but don't blame 
the clock. So here we go. Mr. Decker, I want to ask you to 
describe in very short terms why a strategy is important.
    Mr. Decker. Sir, very simply, this strategy is the 
foundation piece in which you can go and implement particular 
plans and actions and make sure that they achieve some type of 
end state. I have used strategies, and I think most 
professionals will look at them as road maps or concept papers, 
that give you an idea of what has to be accomplished, what is 
in the Nation's best interest, and, in a general way, how to go 
about doing that.
    So if you have a good strategy, you're off to a good start, 
because from that you can derive many other vehicles and tools 
that will help you do what you need to do.
    Mr. Shays. Thank you. You have come before this committee 
before September 11th, as have all three commissions dealing 
with terrorism. And all three, the Gilmore, the Bremmer, the 
Hart-Rudman Commission, made these three points. They said 
there's a new threat out there. They said you need to develop a 
new strategy. And then they said that you need to reorganize 
your government accordingly. And I think the only area they 
disagreed was on the reorganization of government.
    When we encountered an ally in the Soviet Union--former 
ally of the Soviet Union becoming our enemy, they wanted to 
destroy us politically, socially, economically, as well as 
militarily, we brought people in and President Truman and then 
President Eisenhower--but with President Eisenhower, he brought 
them into the White House; and it was basically called the 
Solarium Project, and they developed the fact that we needed a 
new strategy which was basically one of containment and 
reactive and mutually assured destruction.
    You accept the fact that strategy is no longer viable with 
today's threat?
    Mr. Decker. Sir, it's difficult to answer. I don't think 
we've done----
    Mr. Shays. I am not asking you what it should be. It's not 
difficult to answer. Is that old strategy going to be effective 
against this war on terrorism? This isn't a trick question.
    Mr. Decker. No, sir. I understand----
    Mr. Shays. Let me put it this way. Do you agree with all 
three Commissions that said we needed a new strategy?
    Mr. Decker. Yes, sir.
    Mr. Shays. So the answer is, so the old strategy doesn't 
work; correct?
    Mr. Decker. The old strategy may not be as applicable 
today.
    Mr. Shays. Would you walk me through--you have eight 
strategies, it seems to me, not--you have nine strategies not 
eight, unless I'm misreading it. And I would like to know--you 
have the National Security Strategy of the United States. Would 
you be able to articulate that in a fairly coherent way, as to 
what that is?
    Mr. Decker. Yes, sir. The National Security Strategy of the 
United States would be the top-most policy-driven piece that 
explains what's most important about this Nation's security 
from the international standpoint, from an economic standpoint, 
and from a democratic standpoint. It covers all those aspects 
of what has to be addressed to ensure our security for our way 
of life.
    Mr. Shays. Now you blocked it out in the same size as the 
National Strategy for Homeland Security. Is it equal to or 
supersede the National Strategy for Homeland Security?
    Mr. Decker. Sir, that issue came--it's confusing to us 
based on our reading of the document, the Homeland Security 
Strategy, which states that the National Security Strategy and 
the National Homeland Security Strategy are mutually supporting 
documents and represent the top-most tier of the strategies. In 
contrast, our sense would be that there's only one National 
Security Strategy for the United States and that encompasses 
many issues, to include the threats we have from terrorism, and 
that the Homeland Security Strategy and the National Strategy 
for Combating Terrorism would be the two component pieces that 
deal with the problems of terrorism. And so our position is 
that it is confusing.
    If it's confusing to us, and we happen to have done quite a 
bit of work on this, it might be confusing to other agencies, 
international partners, and so on as they start to look at 
specific goals and objectives.
    Mr. Shays. Thank you.
    Mr. Kucinich, we are going to do the 5-minute rule the 
first pass and 10 the second, and you have the floor.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Decker as you stated, there are perhaps 10 national 
strategies, more or less, each with overlapping and 
interrelated functions and each with a set of priorities. I'm 
concerned about the administration's conception of 
prioritization, however. The strategy has described many broad 
goals as priorities, but the strategies really don't involve 
any comparison. This is a priority, that's a priority, 
everything's a priority. But the process of prioritization 
means picking which comes first. It means choosing where the 
money will go. Is that not correct?
    Mr. Decker. Yes, sir. Strategy should help guide where you 
put resources against specific issues.
    Mr. Kucinich. Let me expand on this, if I may, and how they 
relate. Can you tell me, from the text of these national 
strategies, which is more important; for example, securing our 
ports or building missile defenses?
    Mr. Decker. Sir, I would like to answer that by saying that 
perhaps the priorities that are articulated in the National 
Security Strategy would be the big priorities for the Nation. 
But when you get below into the specific strategies with 
critical infrastructure protection, cyber issues, it gets a 
little bit more difficult to determine at that particular level 
which priorities are more important between the strategies.
    Mr. Kucinich. Let me help you, then. We know the 
administration is spending $10 billion this year to defend the 
United States or to try to create a defense against a missile 
carrying a nuclear warhead, while spending less than a tenth of 
that amount to prevent nuclear material from entering our 
ports. Isn't that right?
    Mr. Decker. Sir, I'm not sure of the exact numbers.
    Mr. Kucinich. But you know they're trying to build a 
national missile defense on one hand and--there's a lot of 
money going to that--and on the other hand, there's concern 
about protecting the ports, and only a fraction of the money 
that is going to the national missile defense would be going 
toward the ports; is that correct?
    Mr. Decker. Yes, sir.
    Mr. Kucinich. Now at the same time, the Central 
Intelligence Agency reported in its recent national 
intelligence estimate that the threat of a national missile 
attack is actually less than that of an attack on our ports. 
Are you familiar with that public estimate?
    Mr. Decker. National intelligence estimate?
    Mr. Kucinich. Right.
    Mr. Decker. I'm familiar with some. I am not sure which one 
you're referring to.
    Mr. Kucinich. It's in the national intelligence estimate. 
The Central Intelligence Agency states that the threat of a 
missile attack is actually less than that of an attack at our 
ports. They're saying the ports may require more attention than 
building a missile defense that may or may not work 10 years 
from now. Do you have any comment on that in terms of 
priorities or how would you explain these anomalies?
    Mr. Decker. Sir, as we stated in previous testimony as well 
as the statement today, threat assessments should drive your 
policies and your strategies. At the national security strategy 
level, you look at all threats and you have to consider what 
they represent when you're trying to defend against them. My 
sense is that there are--not just the threat of terrorism, but 
there are other threats that the government has to address in 
different ways to ensure that we're prepared, that we can 
prevent if possible some of these threats, and, if we're not 
able to prevent them, to deal with the consequences.
    Mr. Kucinich. For example, the administration has not yet 
been able to make a case that Iraq represents an imminent 
threat to the United States, but there's a lot of money going 
into that, to a preemptive strike against Iraq; and on the 
other hand, there's not money going for chemical and biological 
decontamination equipment to our hospitals.
    In terms of priorities, what's your role in trying to be 
able to calibrate the priorities and compare one against the 
other to see if we're actually putting the money where it needs 
to be put in order to provide a measure of security for people 
in this country?
    Mr. Decker. Sir, we look at the strategies. We really do 
not critique the priorities per se. We have to assume that the 
government when they draft the strategy are using threat 
assessments and other tools to help them shape that strategy. 
And if they say that the strategy will have four goals or four 
priorities and here is the list of those priorities, we look at 
those in general way to ensure that do they make sense and is 
the rest of the implementation driven by those priorities.
    Mr. Kucinich. I want to thank the Chair and just point out 
that in connection with this discussion that the administration 
appears to be ready to spend about $500 billion in Iraq, but so 
far there's only about $36 billion that is being offered for 
securing our own country.
    Mr. Shays. We'll have disagreements on numbers, but we'll 
proceed.
    Here we go, Mr. Janklow.
    Mr. Kucinich. Thank you Mr. Chairman.
    Mr. Janklow. Thank you very much, Mr. Chairman.
    Mr. Decker, let me ask you, if I can, the National Strategy 
to Secure Cyberspace, the Money Laundering Strategy, the 
Strategy to Combat Weapons of Mass Destruction, the Strategy 
for Homeland Security, the Strategy Plan for the War on 
Terrorism, the Strategy for Combating Terrorism, the Strategy 
for Cyberspace, the Strategy for Physical Protection of 
Critical Infrastructure, and the National Security Strategy of 
the United States--that list that was prepared--do you know any 
of those that, standing alone, aren't important? You agree 
they're all important.
    Mr. Decker. Yes, sir. I think they have elements that are 
in a collective sense important.
    Mr. Janklow. Am I correct, sir, that a part of your 
testimony was we're really not sure at this point in time that 
we have been able to effectively tie them all together into one 
comprehensive super-strategy, if I can call it that--I hate to 
keep using the word strategy--or policy or plan or whatever 
characterization you want to give; but we really haven't been 
able to effectively tie that into one set of documents yet, 
have we?
    Mr. Decker. Sir, if I can paraphrase. If we looked at these 
10 strategies, albeit the National Drug Control Strategy is a 
very small piece--and this may not be the total list by the 
way, this is what we have come across--they represent a 
collage, if you will, on the government's attempt to deal with 
combating terrorism from a very broad look on the national 
level down to a more focused, when you are talking about money 
laundering or weapons of mass destruction.
    Our sense is that because we haven't had time--some of 
these literally came out within the last couple of weeks, our 
sense is they may not all be wired and cross-walked or 
integrated in a way that, if you are that executive, in a 
Federal agency or a Governor or company or a CEO, that the 
pieces that really touch you, that you may have an important 
role, you may not be able to tease that out.
    Mr. Janklow. Two other things. One, we can't minimize, I 
think, the whole question of drugs given the number of 
revelations that have been made over the past couple of years 
of the number of terrorist organizations that utilize drugs to 
raise money for their purposes. So clearly that has a role in 
this, No. 1. And, two, what are the institutional forces, what 
are the philosophical forces that prevent our country from 
sitting down and coming up with a master strategic plan that's 
debated and then becomes the plan, albeit it may be modified at 
times; but what's preventing us from coming up with a plan? Why 
do we have to keep issuing new documents. There isn't any human 
being that can follow all these.
    Mr. Decker. Sir, I would agree with you. The National 
Security Council, on behalf of the President, has 
responsibility to craft these strategies.
    Mr. Janklow. What is your sense that is preventing this 
from happening? It can't be Republican-Democrat politics. Is it 
the bureaucracy or just our inability to understand it? What is 
it that's preventing this from happening?
    Mr. Decker. First, I think it's a pretty complex issue. And 
when you look at the partners that are involved, it makes it 
extremely hard to craft, when you talk about the role of the 
Federal Government, State, local, the private sector and the 
international, and some of that domain you control and some of 
it you do not control. And it becomes extremely hard when 
you're, say, with a task force that's charged to build a 
document that has the ability to accomplish--you know, to set 
clear goals and objectives that are achievable.
    Mr. Janklow. It wasn't that hard during World War II after 
Pearl Harbor. Why is it so difficult now?
    Mr. Decker. Sir, I don't have a good answer for you. I 
think part of it may be if you look at the new Department of 
Homeland Security, the challenge that Governor Ridge is going 
to have blending 22 agencies, 170,000 people. I heard a comment 
that one of the major issues with some of the agencies was 
trying to determine perhaps what color uniform would be used by 
all.
    Mr. Janklow. God bless America.
    Mr. Shays. I thank the gentleman.
    At this time, the Chair would recognize Congressman Bell 
from Texas.
    Mr. Bell. Thank you very much, Mr. Chairman. I understand 
that the documents that you provided us today are intended, or 
I assume they're intended to offer a road map, if you will, 
from where we are trying to go in this area in the war against 
terrorism and overall national security. And in looking at the 
road map, a couple of questions come to mind, some of them were 
already touched on by my colleague, Mr. Kucinich, in terms of 
port security. And I think, and I want to be clear that you 
agree with the premise that--well, the suggestion has been made 
that a terrorist organization would be much more likely to 
smuggle a nuclear device into the United States via one of our 
ports rather than launching some kind of missile attack. Would 
you agree with that premise?
    Mr. Decker. Sir, I think the Intelligence Community and law 
enforcement community would probably agree with that, and I 
think that is more realistic.
    Mr. Bell. And if you take that into consideration--and you 
didn't touch on specifics, but my understanding is that the 
budget proposal seeks over $9 billion for missile defenses, 
while seeking less than $1 billion for port security. And 
coming from Houston, TX, where we have the second largest port 
in the Nation, that's of obvious concern, and I am curious 
about the reason for that disconnect.
    Mr. Decker. Sir, I think the government tries to ensure 
that the priorities are set right and that the resources to 
work on those priorities is also linked. And this has to be 
driven by threat assessment. I don't have a reason, an answer 
to give you, why there's a difference between missile defense 
and port security. Why would there be a difference, you know, 
between first responder training issues, you know, and a 
vaccine? It's kind of like apples and oranges, if you will, and 
we are not privileged to understand some of the reasoning 
behind----
    Mr. Bell. Let me interrupt, because it's not completely 
apples and oranges, because you all are setting the priorities. 
And if you already said that port security is a priority--and I 
realize there's not going to be a direct match-up in terms of 
dollars, but that's a pretty significant disparity when you're 
looking at $9 billion compared to less than $1 million, and 
really looking at the same kind of threat. I'm sure it is more 
expensive to develop missile defense systems, but that seems 
like a paltry sum to be spending on port security. And when you 
view a port like the Port of Houston, and travel the waterway 
and see what a daunting task it is to try and protect that 
amount of shoreline, it is obvious there's a tremendous amount 
of expense involved. And if the administration is not willing 
to make a more serious commitment to it, then it's just going 
to go unprotected.
    Do you see any possibility for change or for it to be 
addressed further in the future?
    Mr. Decker. You addressed one of the key issues we stated 
before, in that there's going to be an awful lot of 
vulnerabilities. Governor Ridge, in his new responsibilities, 
is going to have to do a balancing act with the resources and 
the people to address the various concerns that he will be 
handling as the head of the Department of Homeland Security. 
Above him, the President is concerned about many threats and 
issues; and again, there's not enough funding, resources, or 
energy to cover all the vulnerabilities to this great Nation, 
so it comes down to making leadership decisions. Those have to 
be driven by information. Some of it perhaps we are privileged 
to know and see.
    Mr. Bell. Can you touch on the coordination issue for just 
a moment as to who is going to be overseeing all of this, 
because that's a rather significant question as well.
    Mr. Decker. You're talking about the coordination----
    Mr. Bell. Well, all of these various efforts that we have 
been presented with today.
    Mr. Decker. Sir, I suspect the newly formed committees of 
Congress will have direct oversight, particularly when you're 
talking about homeland security. But when you deal with some of 
the more specific strategies, they touch a lot of different 
activities particularly here on the Hill.
    The money laundering, I think the Banking Committee will be 
involved with aspects of that. When you talk about the National 
Military Strategic Plan for the War on Terrorism, the House and 
Senate Armed Services. Within the administration, this is--
again, the oversight on whether these organizations are 
performing is probably going to be driven to a certain degree 
by the heads of the different agencies tasked to perform the 
duties under these different strategies. And the President and 
his team will have to determine are all the agencies and 
departments that are being tasked, are they coming together in 
a way that makes sense. And they will report this out, by the 
way, through their annual report to Congress on the results.
    Mr. Bell. Thank you, Mr. Chairman.
    Mr. Shays. It's not my attempt at all--I'm sorry, Mr. 
Murphy. Thank you very much, sir. We appreciate your service on 
this committee, and sorry I got so eager. I didn't want to 
leave you out.
    Mr. Murphy. I appreciate you noticing me.
    Mr. Shays. You have an extra minute because I simply blew 
it.
    Mr. Murphy. You know, as I look upon this chart and as I 
read the many parts here, I'm reminded of the book and also now 
the movie, ``Gods and Generals,'' which featured a lot of 
Stonewall Jackson, and he described his strategy with the enemy 
as ``mystify, mislead and surprise.''
    I have to think in looking at this, any domestic and 
foreign enemies would look at this and they don't know how to 
make sense of this system, although I am sure it makes sense to 
someone, and I appreciate it has come out of a comprehensive 
look of setting many, many goals to combat terrorism.
    But just a couple of questions and we can get into more 
specifics another time as to how this is done, but the key 
feature I see in this is communication. Can you describe to us 
how communication is set up between these strategies; for 
example, same agencies, different agencies, same people, 
different people? And I put that in the context of what we 
found in post-September 11th and as described by the folks up 
here, the difficulty in communicating between how many police 
forces did you say in this Nation--18,000 police forces, it's 
pretty massive--and how those strategies work at that 
communication to improve upon that?
    Mr. Decker. Sir, let me make a comment or two and then I 
would like to ask my colleague Steve Caldwell to address that. 
First off, most of the strategies are under the aegis of the 
National Security Council and many of the task forces, the 
working groups that were put together, and most--this is post-
September 11th although several of these strategies are pre-
existing before September 11th and have been readjusted to 
consider the impact of terrorism. Different working groups 
representing different agencies, departments, and sometimes 
it's the same person that may flow between some working 
groups--normally it's not--but there are some key members, 
participants that are the same. And they are given a charge, if 
you will, to work and build a particular document. Sometimes an 
agency will be given the lead for the document, pulling in 
expertise from different agencies and departments as needed. So 
the partnerships that are developed on these working groups 
vary quite a bit depending upon the issue.
    I'll ask Mr. Caldwell if he can provide a little bit more 
elaboration on that because some of these obviously are very 
tailored and some of them are very broad.
    Mr. Caldwell. Thank you. In terms of the coordination in 
general--and this will address one of the earlier questions as 
well--there's really two major mechanisms for coordinating 
here.
    On the domestic side, you've got the Office of Homeland 
Security at the level above the individual agencies, you've got 
the Department of Homeland Security now, interagency working 
groups, and some of these interagency working groups actually 
work putting these plans together. And then you've got at the 
individual agency level lead agencies which then have other 
cases where agencies would support them, and in a few cases, 
for example, money laundering, there may be a little bit of 
confusion about who is the lead agency when you've got, say, 
Treasury and Justice both cited as leads in the National Money 
Laundering Strategy. And that's pretty much the domestic side.
    On the overseas side you have the National Security 
Council, and within that you have interagency groups as well. 
For example, they had a specific interagency working group to 
come up with strategies here, the National Strategy for 
Combatting Terrorism. Then, again, you've got the lead agency 
concept.
    Then you have the other partners, I'll call them. Those are 
within just the Federal family. The big challenges, as several 
of you have alluded to, on the domestic side is dealing with 
the State and local governments and the hundreds of fire 
departments just within a single State, as well as the 50 
States and all of their subdivisions in the State and local 
level.
    And then, of course, on the international side, you have 
the international community where you're dealing with other 
countries, you're dealing with international organizations and 
things like that.
    Now, the key is to keep the international side of our 
coordination mechanism and our domestic side of the 
coordination mechanism talking to each other, and I think if 
you look at the two top-level strategies for both of those--
actually, I think within the two plans there is a good deal of 
commonality.
    For example, in what we'll call the overseas strategy, the 
National Strategy for Combatting Terrorism, there is an 
explicit objective to implement the other strategy, the 
National Strategy for Homeland Security. So I think those two 
strategies we look at as the top-level strategies, one being 
offensive and overseas, one being domestic and defensive under 
the top of the pyramid, as Mr. Decker said, which would be the 
National Security Strategy.
    I'm sorry if our chart is a little bit mystifying. 
Hopefully the enemy finds it that way. But this is how the 
administration had portrayed those two strategies as being side 
by side, the National Security Strategy and the National 
Strategy for Homeland Security. But as Mr. Decker said, we see 
the National Strategy for Homeland Security as being maybe a 
coequal with the National Strategy for Combatting Terrorism, 
one being offensive, one defensive; one domestic, one overseas.
    And then the other strategies, a lot of them are really 
kind of functional strategies within that. So we do see some 
kind of hierarchy among these plans. Thank you.
    Mr. Murphy. Thank you, Mr. Chairman.
    I yield back my time.
    Mr. Shays. I want to just go through--and we're going to 
have a 10-minute cycle here. I'm not saying that Members don't 
have to use the 10 minutes, but I do want to make sure we cover 
some things, and if we cover them--and I know my colleagues may 
want to do that as well.
    I want to ask you four basic questions that I want on the 
record that are part of your statement. I want to know what are 
the essential components of a successful national strategy. 
That is one of the questions I want. I want to know are these 
found within the eight Bush administration strategies to combat 
terrorism. So that is my first question.
    Mr. Decker. Sir, we would look for several key elements 
within a national level strategy. Obviously one of the most 
important things would be a vision, a mission statement, clear 
goals and objectives, roles and responsibilities delineated, a 
general scheme of how to accomplish some of this, and then some 
performance measurement issues so that you can measure your 
progress.
    There also should be, when you talk about the mission and 
up in the vision statement, a sense of end state.
    Mr. Shays. What--I'm not clear whether you have attempted 
to grade all of these eight strategies, and this is National 
Security Strategy, National Strategy for Combatting Terrorism, 
the homeland security, combatting weapons of mass destruction 
national strategy, the National Money Laundering Strategy, 
securing cyberspace, the physical protection of critical 
infrastructure. All of these, have you attempted to evaluate 
and give a grade of whether it meets the test of a good 
strategy?
    Mr. Decker. Sir, let me answer the question without grades. 
I would say some of the strategy documents are well written. 
They have most of the prerequisite pieces that we would expect, 
and this is for implementation purposes.
    The National Strategy for Combatting Terrorism is very well 
written, has an excellent threat assessment linkage with why 
you're doing what you're trying to do.
    Mr. Shays. I'm not going to ask you with my time to go 
through each one. I just want to know----
    Mr. Decker. Yes, sir. I was just going to give you the 
field goals, if you would.
    Mr. Shays. OK. That is fair.
    Mr. Decker. The one that I think I would send back to redo 
or review would be the Strategy for Combatting Weapons of Mass 
Destruction. I believe it is only eight pages in length. It 
really doesn't do the issues that need to be done about the 
principles. It does talk about some focus areas and the roles 
and responsibilities. It is quite academic.
    Mr. Shays. Have you seen--even those that are basically 
classified, you've gone through these strategies as well, 
correct?
    Mr. Decker. Yes, sir.
    Mr. Shays. OK. I would like you to look at each one based 
on how you describe what a good strategy is, and I would like 
you to provide a document to this committee that we'll 
distribute to both sides, obviously, outlining on each of those 
tests how they measure up. OK?
    Mr. Decker. Yes, sir.
    Mr. Shays. How will we know if the strategies are 
effective? I want to know what performance measures are planned 
to gauge the effectiveness of the strategies, and to what 
extent is the absence of a terrorist attack validation that our 
strategies have been successful?
    Mr. Decker. Sir, a strategy by itself, as I indicated, is 
just a document. It should have some pieces that would help 
guide the implementation. The performance measures to gauge the 
progress of whether you're succeeding against the war on 
terrorism by and large, are still under development.
    We approach the performance and progress against the war on 
terrorism a little bit differently, and we would--we know how 
hard this is for people to wrestle with, but if you consider 
the war against terrorism or on terrorism much like the war on 
poverty, or the war on crime, you may never succeed in 
eliminating it totally. What you do have in the interim, you 
have positive operational events that lead to larger positive 
outcomes.
    For instance, when you eliminate the leadership of a 
terrorist group, or you freeze their financial assets or you 
reduce the safe havens that they enjoy, you have accomplished 
quite a bit that will lead to an even greater outcome, which 
means perhaps less--fewer attacks of significant measure.
    Mr. Shays. Thank you.
    In regards to--I'm basically asking a question that relates 
to the first but are there aspects of combating terrorism that 
are overlooked or any holes in these strategies. I'm looking 
for the gaping ones, not the final ones, and you started to do 
it with one response, but when you look at these eight 
strategies, where do you see the holes?
    Mr. Decker. Sir, that links back into the review that we 
will do, looking at the integration to see where are those true 
fabrics. When I asked the team to take a look at that, we did 
not come up with any particular gap, except for the one on 
intelligence.
    Mr. Shays. OK. How can the NSC, the National Security 
Council, more effectively coordinate the implementation and 
oversight of the eight national strategies? Is the Office of 
Homeland Security coordinating and implementing the national 
strategies? Those are my two questions. Do you want me to 
repeat them?
    Mr. Decker. Yes, sir, if you could paraphrase it just----
    Mr. Shays. I want to know how can the NSC more effectively 
coordinate the implementation and oversight of the eight 
national strategies?
    Mr. Decker. Sir, I think the first step would be to better 
articulate how they all relate to each other and put it in a 
way that everyone--from the Secretary of the department down to 
a GS-7--can understand how they are in some type of precedence.
    Mr. Shays. That's Congressman Janklow's basic concern.
    Mr. Decker. Sir, that would be No. 1. Then once that is 
done, then you have better success of trying to tease out 
whether some of the implementation is really being effective 
and efficient and how it's being done.
    My sense is that--and my team, I give them a lot of 
credit--they looked at all the strategies. They talked to a lot 
of smart people, and they asked during one meeting at the 
senior level, has the executive branch come up with a 
schematic, a graphic depiction of this? And they said, it's too 
hard. They had not.
    As far as we know, this is the only depiction of how these 
kind of hook together, and obviously it's not perfect, and it's 
very confusing.
    Mr. Shays. Now, the one strategy that you added, your ninth 
strategy, is the National Military Strategy. So that's what you 
added there.
    The one area--I think that Mr. Kucinich and I disagree on 
some statistics and numbers, and I happen to believe that 
preemptive is absolutely essential. I believe that Iraq 
represents an imminent threat, not something that's way off in 
the future. But the area where we do agree is that before 
September 11th we talked about what various commissions said, 
and particularly the Hart-Rudman said there needs to be a 
Department of Security. In that Department of Homeland 
Security, when I mentioned it to constituents before September 
11th, they said, what are we, Great Britain? It seemed like a 
foreign thing.
    Then September 11th happens. The President believes that he 
can deal with this issue with a coordinator. A lot of my 
Democratic colleagues and a few Republicans, and I was one of 
them, said we need something more significant, we need a 
Department of Homeland Security, and he ended up, I think, 
coming around to where most Democrats were.
    But the one area that Mr. Kucinich and I think had some 
real problems was that while we knew we needed to reorganize, 
we never felt that the strategy--the threat was properly 
described. We think it was more on an intuitive response, and 
that the strategy was never fully described, and I want to be 
fair to Mr. Kucinich, but I think on these two issues, we 
thought that should happen. The difference is I felt we needed 
to get this Department moving, and I think this is still a work 
in progress.
    So I'm happy we have a Department, but I am concerned that 
the administration didn't really state in a sufficient way what 
the threat was and what our strategy was to then begin this 
Department of Homeland Security.
    I'm delighted you're here. I'll be recognizing other 
Members, and, Mr. Kucinich, I'll start with you.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    National Security Strategy of the United States of America, 
homeland security, physical protection of critical 
infrastructure and key assets.
    Sir, do you see the quandary which arises when preemption 
could actually be counterproductive to assuring the security of 
the United States of America, our home?
    Mr. Decker. Sir, I can only answer that the executive 
branch, the President has a lot of challenges he has to 
address, and these strategies do address significant issues 
that the administration is trying to deal with.
    Mr. Kucinich. I'm going to read from the National Security 
Strategy: The United States has long maintained the action of 
preemptive actions to counter a sufficient threat to our 
national security. The greater the threat, the greater is the 
risk of inaction, and the more compelling the case for taking 
anticipatory action to defend ourselves, even if uncertainty 
remains as to the time and place of the enemy's attack. To 
forestall or prevent such hostile acts by our adversaries, the 
United States will, if necessary, act preemptively.
    I think to have this hearing without discussing Iraq would 
be inappropriate, because we are talking about a preemptive 
action against Iraq, and if the administration--and I'm happy 
to have any Member--I'll gladly yield to any Member who can 
articulate a case which says that Saddam Hussein has nuclear 
weapons, has biological and chemical weapons of mass 
destruction that are usable, has missiles with the potential to 
strike at this country, has the intention to do so, because I 
haven't seen anything on the public record which indicates a 
case for preemptive action, and yet the day before our vote on 
the Iraq resolution, the Central Intelligence Agency in a 
letter to Senator Graham indicated that there did not appear to 
be an intention on the part of Iraq to attack the United 
States. The New York Times last Sunday had a story that 
indicated that a preemptive attack on the part of the United 
States against Iraq could result in terrorism being visited 
upon our shores.
    Mr. Shays. Would the gentleman like to yield? I'd be happy 
to jump----
    Mr. Kucinich. Sure, Mr. Chairman. I have a great respect 
for you, and I think that this would be an excellent 
opportunity for a colloquy on this, because I'm having trouble 
for understanding what the basis for preemptive action is.
    Mr. Shays. Well, I think, frankly, it stems from a lot of 
the work in this committee. We know that Saddam Hussein had a 
viable chemical and biological program before the war in the 
Gulf. We didn't know that he had a viable nuclear program, but 
he did. We knew that he had a viable chemical and biological 
program after the war in the Gulf. We didn't know at the time 
that he had a nuclear program until we had a defector who came 
before this committee and told us that our intelligence 
community said there is no program and didn't accept his name 
or that he was in charge of it.
    We then discovered where the nuclear program was when his 
two sons-in-law came to Jordan. They were debriefed. I spoke 
with one of the briefers. We were immediately able to send our 
colleagues the inspectors to those sites. They uncovered the 
nuclear program. So we had a clear one then. We destroyed the 
systems that he had, and then when we started to talk to the 
men and women who were making those chemical, biological, 
nuclear programs, Saddam became very belligerent. He started to 
threaten the inspectors, and we withdrew them. The fact is that 
he had one before the war, he had one after the war, and he 
kicked us out when we started to tear out the roots, not just 
destroy the weapon systems.
    So I really think that the burden is on Saddam to explain 
to us what he did with those programs and what he did with the 
people. He hasn't done that, and section 1441 makes it very 
clear he needs to cooperate with the inspectors, and he needs 
to disarm. He has not done either the disarming or the 
cooperation.
    Just to give you another example, just finding the empty 
canisters, the rockets that were empty, we had testimony in our 
committee that made a point that you don't load your weapon 
system with a chemical. You do it just before. Hans Blix 
pointed out they were in a new facility.
    I could keep going. I don't know how much longer you want 
to yield to me, but our testimony before this committee was 
that we know he has a nuclear program. Our allies know he has a 
nuclear program. Our opponents know he has a nuclear program. 
The question is do we wait until he actually has the weapons-
grade material? We had testimony before this committee that 
pointed out the weapons-grade material is the size of a 
softball if it is plutonium--excuse me, the size of a baseball 
if it is plutonium, the size of a softball----
    Mr. Kucinich. So you are saying based on that we should 
launch an attack against him?
    Mr. Shays. No. I'm saying that he is within months 
potentially of getting nuclear weapons, and I don't even think 
Jimmy Carter would allow Saddam Hussein to have nuclear 
weapons. So your description to me is answered by that, but I 
could go on.
    Mr. Kucinich. Wait. But this is--and I appreciate the Chair 
being willing to engage in this colloquy, because we need to 
explore the ambiguities which exist. It is ambiguous that 
Saddam Hussein has nuclear capability right now. I think that 
actually it's less than ambiguous. He has no nuclear capability 
at this moment. According to information that has been made 
public from our own government, he's at least 10 years away 
from developing any nuclear capability. However, North Korea, 
North Korea at this very moment, North Korea is mentioned in a 
number of these security documents, and North Korea has the 
nuclear capability and is actually rattling a nuclear saber, 
yet no one is talking about a preemptive attack on North Korea.
    Mr. Shays. There's a reason.
    Mr. Kucinich. Mr. Chairman, I think you're right, there is 
a reason, and the point is that if we are able to use diplomacy 
in dealing with North Korea, which has nuclear weapons, which 
is rattling a nuclear saber, we can do the same thing with Iraq 
which doesn't have nuclear weapons, even if they have a program 
that might not be viable for 10 years.
    I want to add to this----
    Mr. Shays. Could the gentleman just yield?
    Mr. Kucinich. Of course, Mr. Chairman. I think this is 
important that this debate take place.
    Mr. Shays. Our CIA didn't even know he had a program and 
denied any program. It was not until we had a defector and his 
two sons-in-law pointed out that he had a very active program. 
It was--so your comment about the CIA suggesting or someone 
suggesting that 10 years away, we had testimony before our 
committee that said it could be 6 months away. So, I mean, this 
very committee----
    Mr. Kucinich. Mr. Chairman, I would respectfully suggest 
that the Central Intelligence Agency, however its defects, is 
vastly more equipped to make an assessment of the capabilities 
of another government than would be a defector whose very 
presence in a committee room suggests that there's some 
political motive to his participation.
    Now, I want to add this, and that is--and just for the 
record, I think that the Chair has made a case that inspections 
worked to destroy weapons, and that's actually what's going on 
right now. The inspections worked in the past to destroy Saddam 
Hussein's weaponmaking capability, and the U.N. inspectors are 
working to continue to do that right now. And all that I'm 
saying, Mr. Chairman, you know, with due respect, because I 
have the greatest respect for you, is that this doctrine of 
preemption, it doesn't appear that Iraq measures up to what 
would be the basis for preemptive action, that they haven't met 
that level, and on the other hand, North Korea presents a 
greater challenge, and I would not advocate a preemptive attack 
against North Korea, but I'd be less inclined to advocate one 
against Iraq, because it hasn't met the test, which would be 
the threshold of the national security doctrine of preemption.
    And a final point here on this, and that is that inasmuch 
as the Federal Bureau of Investigation has had officials who 
have indicated a concern that an attack in Iraq would bring 
about terrorism to our shores, would create lone wolf attacks 
inside the United States, then we have to make an assessment 
whether this doctrine of national security runs actually--
calling for preemption runs actually contrary to this doctrine 
which calls for homeland security.
    And, Mr. Decker, it goes back to the earlier question I 
asked you, and that is we are prepared to spend--depending on 
the estimate--Lawrence Lindsey's estimate, $200 billion, 
Professor Northouse of Yale, anywhere from $99 billion to over 
$1 trillion for a war against Iraq, a preemptive strike, 
occupation, reconstruction, all that money involved, and yet 
we're not devoting anywhere near the amount of money to secure 
our borders, our ports against the kind of attack which the FBI 
says is more likely if the United States launches a preemptive 
attack.
    So do you have any comment on that? I mean, in your work, 
do you get a sense of proportion or priorities or anything like 
that, or are you just counting beans? What are you doing?
    Mr. Decker. Sir, I really can't comment on what you've just 
raised. I don't count beans. I look at issues, try to ensure 
that these strategies make sense in the implementation, and 
that they have the right component pieces to allow success.
    Mr. Kucinich. OK. Now, I raise this point, Mr. Chairman--I 
know my time is expired. I'll make it quick. You would think 
that these strategies would be integrated. I mean, I would 
think that's optimum, to have the strategies integrated. It 
would seem to me that an integrated strategy said that if you 
had to use preemption, that would then be in the defense of our 
home; however, if you see the possibility that the use of one 
strategy might run counter to another strategy, it's an 
opportunity for discussion.
    I want to thank the Chair for engaging in this discussion. 
Thank you.
    Mr. Shays. I thank the gentleman for his yielding to me.
    At this time, Mr. Janklow, I'd love to ask if you would 
yield a second.
    Mr. Janklow. Yes, sir.
    Mr. Shays. Thank you.
    Just to put on the record, we may be looking at the FBI 
data slightly differently. The FBI data that I've seen 
basically has said we will have terrorist attacks whether or 
not there is interaction with Iraq, and that potentially, if 
anything, they may just wait, but the attacks will still come.
    We're not going to respond to the blackmail of Iraq, and I 
just wanted to make sure that I corrected for the record the 
number. I think it's very legitimate to raise some real 
questions about the amount of money that the military action 
will take, but the rebuilding of Iraq, it's very clear, the 
administration said will be spent on Iraqi oil for the Iraqi 
people. We are feeding them--the people have been starving; 
giving them medical help--the people hadn't been getting the 
medical help. And I just want to point out that expense, which 
will not be small, will be paid for by the 10 percent of the 
world's oil owned by the Iraqi people, just to make sure that's 
part of the record.
    I thank the gentleman for yielding.
    Mr. Janklow. Thank you, Mr. Chairman.
    Mr. Chairman, other members of the committee, I hear people 
all the time using data to run figures around and the comment 
that there's some professor that thinks the war--a prospective 
war would cost $1 trillion. That professor must be in the 
English department writing fiction and couldn't possibly be a 
person that understands anything about the current world 
events.
    You know, some people make the suggestion that in the event 
that there were to be a war with Iraq, that America is going to 
be attacked by terrorists. I don't know what America did to 
become the recipients of the World Trade Center incidents. I 
clearly don't know what we did to precipitate the individual 
that was coming down from Canada that was apprehended at the 
border with the attempt to blow up things in our country. I 
don't know what we did to encourage the individual to get on 
the airplane and fly across the ocean with explosives in his 
shoes so he would try to blow up an airliner. I don't know what 
we did to precipitate the Cole incident where they blew up one 
of our ships in Yemen, but maybe someone could explain that to 
me at some point in time, and I won't be quite so ignorant on 
the subject as I apparently am right now.
    But, Mr. Decker, if I can go back to questions with you, 
I'm really concerned about the fact that all these documents 
are well honed. People that sit and write them put a lot of 
thought and effort into them, but they do it in somewhat of an 
isolation within the sphere where they're working, and they're 
not looking at the big picture.
    You know, it's going to be terribly difficult in this 
country to come up with an overall strategy, because of the 
nature of our Federal system, because of the nature of the way 
that this country is structured and the division of 
responsibility and how we operate. In any State, the Governor 
thinks that he or she is the chief ultimate law enforcement 
official. The mayor of the city knows he or she is. The chief 
of police really knows it's in their department, until you talk 
to the sheriff who says, it's my jurisdiction, and the State's 
attorney says, no, you're all wrong, it's my jurisdiction. The 
county commission thinks that they have it, and we sit around 
complaining about the way the Federal agencies try and interact 
with each other.
    Given the fact that these documents are drafted within the 
political system, where no matter what you do, someone is going 
to pick on you for not having done the right thing, for not 
having given the right emphasis to something, for not having 
given the right focus, wouldn't it be helpful if this was--
there was legislation passed that basically mandated an overall 
document, if I could call it that, an overall strategy, that 
once it's prepared by the executive branch, then will be picked 
apart, critiqued and analyzed by the American people, by all of 
the various special interests, and by the Congress, so that we 
can respond to it, because the way we're doing it now, we're 
never--do you think we're ever going to bring it together into 
one structure, given the way our system operates?
    I realize that's a compound question, but I think y'all--by 
the nodding of my head, you understand what I'm getting at, 
sir.
    Mr. Decker. Sir, let me break your question into two parts. 
One had to do with what legislation is needed, to pull this 
together to make sure it's integrated. The second part is 
whether this is mission impossible?
    Regarding the first part, we've not done enough of the work 
that we have to look at--we know it's confusing, but where are 
the true gaps in the integration of all these strategies, and 
does it make sense to have one overarching national strategy to 
combat terrorism with key component pieces.
    Mr. Janklow. Do you think it does?
    Mr. Decker. Well, I think what we did determine--I think 
there's a merit to having one strategy. However, if you look at 
that one strategy and break it in two parts, like Mr. Caldwell 
mentioned, you have a homeland security piece, and you have the 
overseas combating terrorism piece. They represent the domestic 
and international sections, if you will. Those two component 
pieces, in my view, could be very nicely crafted into one 
combating terrorism strategy with, obviously, the homeland 
security piece.
    When you talk about money laundering, weapons of mass 
destruction, cyber and critical infrastructure protection and 
those issues, those are more functional, strategies that would 
dovetail into not just those two combating terrorism 
strategies, but perhaps even some larger issues. For instance, 
the cyber--protection of critical infrastructure and the cyber 
piece, you have threats that come from other countries, you 
know, not just from terrorist groups. So that has to be a 
broader strategy to deal with things that come out of the 
National Security Strategy.
    When I talk about a pyramid, this is not a pyramid with 
nicely shaped, equal-sized boxes and blocks that would look 
really pretty. This might be, you know, a hybrid, if you will, 
of an Egyptian pyramid, a Mayan pyramid and some other type----
    Mr. Janklow. But, sir, if we do that, if I can interrupt 
you for a minute, if we have all these different structures, 
how is anybody ever going to comprehend it? Who could pass the 
test on what it all says and what it all means? Who is going to 
figure it out?
    Mr. Decker. Well, that's why there's a crosswalk that 
hasn't happened, at least in our view, and that crosswalk, one 
of the indications we can tell--meaning has this document, this 
strategy, been linked into this other strategy--some of these 
key goals, objectives and references to this is a support piece 
for this other strategy, and we've only seen that in one or--
you know, a couple of the strategy documents.
    There was one revealing anecdote that my team mentioned. 
During an interview with a department, they were talking to a 
detailee from another major department that plays in combating 
terrorism, and the mention was, did you know about this 
strategy which came from the detailee's parent department. He 
had no idea that strategy was even being drafted.
    Mr. Janklow. But isn't that always going to be the case the 
way we're doing it?
    Mr. Decker. Yes, sir.
    Mr. Janklow. So we need another method. This one has proven 
to create a lot of nice documents, but they're not--they may be 
interrelated, but they're not coordinated, and if people are 
never going to figure it out----
    Mr. Decker. Well, I'll say they're not integrated. That's 
for sure. And if you have problems with integration with the 
documents, you're going to definitely have problems with 
coordination and----
    Mr. Janklow. We talk about integrated working groups, 
integrating working groups. Just the mere fact that we've got 
to bring all these working groups together, you know, somebody 
once said that God so loved the world, He didn't send a 
committee, and this is what we're dealing with with all these 
interagency working groups all the time. When one member of the 
group quits and goes and gets another job, you've got to start 
all over again in bringing people up to speed.
    Isn't there a better way to do it? When there was the old 
NATO and the new NATO, there was a Supreme Allied Commander. 
There was a person who was in charge. The military is a great 
model for this pyramid of getting things done, albeit they have 
difficulty dealing sometimes with the Army, Navy, Air Force and 
Marine Corps coordinating, far less today than they used to 
because the decision was made to really integrate these things 
into one operating sphere.
    Please tell me, if you can, why can't this be done with our 
National Security Strategy as it pertains to terrorism?
    Mr. Decker. Sir, I think it can be done, and that's the 
role of leadership, the President, the National Security 
Adviser getting the team together and making sure that this 
constellation of strategies can be understood.
    Mr. Janklow. Without bringing in ego, is this a job for the 
executive branch, or is it a job for the legislative branch?
    Mr. Decker. Well, I think legislation of some sort may be 
very useful in coming to closure on this issue. The actual 
degree, the mandating of what that language would be, I think 
I'd have to think about that. The pressure, I mean, through our 
oversight, I mean, having someone from the executive branch 
explain why this cannot or is not being integrated or what 
would it take to integrate would be very useful.
    Mr. Shays. I might say that the gentleman's time is up, but 
we certainly will make sure that the administration is, in 
fact, represented and testifies before the committee to point 
out how they're going to be integrating these; all of them 
being very important strategies, but how are they integrated? 
And I thank the gentleman for his questions.
    At this time the Chair would recognize Mr. Bell for 10 
minutes.
    Mr. Bell. Thank you, Mr. Chairman.
    I think I share some of my colleagues' frustration in that 
there does seem to be somewhat of a grab-bag approach to 
fighting the war on terrorism. It's everybody's responsibility, 
and then at the end of the day if something happens, where are 
we to look? Who is responsible?
    And I want to take just one area, one of the strategies, 
and that is the National Strategy to Secure Cyberspace, because 
in looking at the document that was provided, the public-
private partnership has suggested it will be again sort of 
everybody's responsibility, the Federal Government, the private 
sector, State governments, local officials. Who is going to be 
responsible for implementing the National Strategy to Secure 
Cyberspace?
    Mr. Decker. Sir, let me direct that question to Mr. 
Caldwell.
    Mr. Caldwell. Let me answer your question. In terms of the 
cyberspace, we have difficulties in a lot of these areas, 
because we've created a new department. There are incredible 
challenges ahead for this department, and the infrastructure 
protection is one of those responsibilities that has now 
shifted even within the Federal Government from the President's 
Critical Infrastructure Protection Board to a Cabinet-level 
department, and it has a division within there that would look 
at those kinds of issues.
    And the problem that you were talking about in terms of the 
private partnerships, the partnerships with State and local 
governments as well, I mean, these are just things we're going 
to have to get used to in terms of the Federal system we live 
in, and the sovereignty and autonomy of our State governments, 
and the autonomy we give to the private sector, and rightly so. 
I don't think we want to change some of our basic precepts here 
in terms of what should be private and public in government and 
what shouldn't, because of these other things. I think that 
there are incentives, and government will use the normal 
incentives it always uses to try to get the private sector to 
do things, to do either taxation, revenue, subsidization, other 
types of partnership that--to try to get the government to--or 
the private sector to----
    Mr. Bell. And that's fine. Let me interrupt, because that's 
all well and good, but at the end of the day somebody has to be 
responsible, and it needs to make sense, and it needs to be 
logical. And the area of cyberspace, if you're to believe the 
story in the Washington Post, and it appeared to be quite 
credible, that appeared several weeks ago, the Department of 
Defense is in the process of engaging in massive plans and 
having regular discussions about the ethics involved in 
cyberwarfare and mounting a giant cyberwar effort, if you will. 
It seems that it would make sense that the Department of 
Defense would actually--or would also head up the effort to 
decide how to best guard against cyberwarfare in this country. 
Those who are developing the offense, it seems logical, would 
be in a pretty good position to also design a defense. Does 
that not make sense to you?
    Mr. Decker. Yes, sir, it does, and, in fact, I believe in 
the cyberdefense area, there are quite a few participants that 
are in the Federal area, some in the State, local, private. 
Some of the different institutions are involved. There are 
national security issues. There are criminal issues. There are 
terrorism issues. There are private citizen issues. I mean, 
there are a lot of participants in that.
    One comment I would make with what Mr. Caldwell said about 
the strategy. When we looked at the strategy, there are some 
things that are directed, and then there are some things that 
are hoped, that are less--more of a voluntary nature, and my 
sense is that when you're dealing with Federal, State, local, 
private sector, international partners, it's a very delicate 
walk between what you can direct and what you hope will be the 
outcome of voluntary participation. I think that's one of the 
challenges with the critical infrastructure piece and the cyber 
piece is people have to be willing to agree with your strategy 
and maybe the investment in those areas that they have to allow 
for this comprehensive security framework. That's going to be 
the real big challenge.
    I heard this when I was out in California last year, 
talking to an audience of people that were involved with the 
port authority at Los Angeles and Long Beach. The issue was how 
much funding was the Federal Government going to give to help 
on port security. There were partners in there from the union, 
from private owners, from the State, local, the Federal 
Government. What came out of the private sector was, you know, 
when we need to fix the security here, we're also going to need 
to fix a lot of the infrastructure issues, because these ports 
were built back in World War II-era, and the ships can't get 
close enough. There are a lot of issues.
    So it's very complicated when you're asking people to put 
investment in for, in this case, security, be it cyber or 
physical infrastructure, and there's other ramifications on 
that investment, and it's very difficult for a lot of entities 
outside the Federal Government to know exactly what to do.
    Mr. Bell. While there's still time, I want to touch on one 
other area that I consider quite important. Obviously, as the 
Chair pointed out, I'm a freshman member, so I've just been 
here a couple months. Most of the focus has been on Iraq. A 
tremendous amount of the focus has been on international 
terrorism, and I've always felt that we have a very reactive 
government, and we tend to adopt this mindset that yesterday's 
problem mattered yesterday. Now we need to move on to today's 
problem and tomorrow's problem, forgetting that yesterday's 
problem can very easily creep back and become today's problem. 
And not too many years ago back in 1995, 1996, the major threat 
to many people or many people considered one of the major 
threats on the terrorism front to be domestic terrorism, fringe 
groups within our own borders.
    Now, as I said, I've been here 2 months, and I've heard no 
talk about domestic terrorism whatsoever or any efforts to 
infiltrate and to make sure that those types of extremist 
groups are not going to be creeping back into the forefront and 
doing the kind of damage that we saw in Oklahoma City several 
years back. I'm curious, have we moved on? Are we just focusing 
on international tier and threats from abroad? I understand 
obviously there will be some overlap in these efforts that 
would not only be effective against international terrorists, 
but would also be effective against those types of efforts 
within our own borders, but it does seem that an overwhelming 
amount of the concentration is on terrorists abroad, and I'm 
curious as to what that's doing to our focus here at home, if 
you could comment on that.
    Mr. Decker. Sir, recently the FBI has released a national 
threat assessment, which we have asked for and the committee 
has requested that this be done as well going back to 1999, and 
we've not had a chance to review it in its totality, but if 
it's a good threat assessment, it should have the domestic 
whether they are the home-grown variety or farm variety threat, 
be it from terrorism, in that document. My understanding is 
that it is a classified document, and there's two versions, but 
there's a law enforcement sensitive. We plan to review that 
document to better understand is it a comprehensive assessment.
    Mr. Bell. Just to humor us, if you all could start 
including some of these domestic efforts in these overall 
plans, that would be great.
    Mr. Decker. Sir.
    Mr. Bell. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much, Congressman Bell.
    We are joined by Mr. Turner, who is the vice chairman of 
the committee, and it's kind of interesting for me to think 
that one of our Members is a former Governor and had that kind 
of chief executive approach to his questions. And Mr. Turner is 
the chief executive in Dayton and helped balance budgets, and 
we're just delighted that you're the vice chair of the 
committee and just would recognize you. And I think your wish 
is that we get on to the next panel; is that correct?
    I would just note for the record that last week we had--
this committee did have a briefing by the FBI on the threat 
assessment of the FBI, and one of the challenges we have is 
that--and I say this to you, Mr. Bell--is that it is basically 
a classified document. It's not something the press can talk 
about. But while some people are focused on Iraq and some in 
Korea, we've got some who couldn't tell you anything about Iraq 
or Korea, but can tell you a lot about the threat assessment 
that we're dealing with domestically. A lot has happened. It's 
pretty impressive.
    At this time I thank you, Mr. Decker and Mr. Caldwell. I 
think the highlight for me was the question to you on the 
cyberspace stuff, and I thank both of you for your very fine 
answers and for the committee's participation. We've been 
keeping the other panel waiting a bit longer than I thought, 
but it's been very interesting having you both testify.
    At this time we will go to the next panel. Is there 
anything I guess I should have said, Mr. Decker, that you want 
to put on the record before we go?
    Mr. Decker. Yes, sir, if I could make one comment. I would 
hope in a year from now when this issue is revisited, that it 
will have been totally sorted out so that we are on an 
effective path for implementation.
    Mr. Shays. Guess what? We're going to have you here in 6 
months, and we're going to hope in 6 months it's done. Is that 
a deal?
    Mr. Decker. Yes, sir.
    Mr. Shays. And you guys will be pushing the administration, 
and we will, and we're kind of the catalyst, and they'll do 
their job, too.
    Mr. Decker. Thank you.
    Mr. Shays. Thank you very much.
    At this time the Chair will announce the second panel. Our 
second panel is the Honorable James Gilmore III, former 
Governor of Virginia; chairman, Advisory Panel to Assess the 
Domestic Response Capabilities for Terrorism Involving Weapons 
of Mass Destruction. That's why we call it the Gilmore 
Commission. I think if you want to have a commission named 
after yourself, you just give it a long title, and then they 
just decide to use the chairman's name.
    We have Dr. Michael O' Hanlon, senior fellow, Foreign 
Policy Studies, the Sydney Stein, Jr. Chair, the Brookings 
Institution.
    We have Dr. Andrew Krepinevich, executive director of 
Center for Strategic and Budgetary Assessment; and Mr. John 
Newhouse, senior fellow, Center for Defense Information.
    I welcome all four to the panel. I'm going to have you 
stand up, and stay standing, because I'm going to swear you 
guys in. If you'd raise your right hands.
    [Witnesses sworn.]
    Mr. Shays. Thank you. We'll note for the record a response 
in the affirmative.
    Mr. Newhouse, I'm going to have you move your chair over a 
little slightly.
    Dr. O'Hanlon, you can move yours over slightly, too.
    OK. We're changing the batting order a bit. We're going to 
have Governor Gilmore speak first, and then, Dr. O'Hanlon, 
you'll be second. Mr. Newhouse, we're going to have you third, 
and we're going to have Mr. Krepinevich be the cleanup batter 
here.
    Let me say to you first, Governor Gilmore, you have been 
before our committee on a number of occasions, and if it hasn't 
been you, it's been someone else on the Gilmore Commission, and 
we appreciate what you did before September 11th, and we 
appreciate what you're doing now. I have read the testimony 
that was submitted that was available to me last night, and 
this is an excellent panel. We're really delighted you all are 
here. Looking forward to what you'll have to say.
    Mr. Gilmore. Mr. Chairman, thank you very much----
    Mr. Shays. I'm going to have you turn that mic on. Let me 
just do what I said before and ask unanimous consent that all 
members of the subcommittee be permitted to place an opening 
statement in the record, and that the record remain open for 3 
days for that purpose, and without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    I would say to the witnesses that if you want to touch on 
any of the questions that you've heard, we forced you to listen 
to the first panel but if there are some points that you think 
need to be addressed, feel free to do that. Regretfully, some 
of your statements are even longer than 10 minutes, so I know 
you'll have to summarize, so we welcome that, but your 
statements were excellent.
    Sorry for the interruption. We'll start all over again, 
Governor.

STATEMENTS OF JAMES S. GILMORE III, CHAIRMAN, ADVISORY PANEL TO 
    ASSESS THE DOMESTIC RESPONSE CAPABILITIES FOR TERRORISM 
  INVOLVING WEAPONS OF MASS DESTRUCTION; MICHAEL E. O'HANLON, 
 SENIOR FELLOW, FOREIGN POLICY STUDIES, THE SYDNEY STEIN, JR. 
CHAIR, THE BROOKINGS INSTITUTION; JOHN NEWHOUSE, SENIOR FELLOW, 
  CENTER FOR DEFENSE INFORMATION; AND ANDREW F. KREPINEVICH, 
    EXECUTIVE DIRECTOR, CENTER FOR STRATEGIC AND BUDGETARY 
                          ASSESSMENTS

    Mr. Gilmore. Mr. Chairman, thank you very much, and I will 
summarize, I believe, within the timeframe, maybe offer one or 
two additional thoughts than are contained within the written 
presentation.
    Mr. Chairman, I'm pleased to be here with you and with the 
others--not only with the other Members of Congress. Thank you 
very much, gentlemen, for the chance to be here with you, and 
particularly my former colleague Governor Janklow, who is an 
old pal of mine. So nice to see you, Governor--Congressman.
    Ladies and gentlemen, the September 11th, of course, has 
changed everything. It seems to me like that much of what we 
are doing and what we're thinking about and the way we're 
evolving as a Nation is simply being driven by the September 
11th attack. It certainly was traumatic and continues, in my 
judgment, to be traumatic to this day, and as a result we're 
dealing with issues we previously have not dealt with, and we 
may even deal with them in ways that we probably--would be 
different than the previous time.
    Our reports--as you know, we have now four reports. We are 
the official advisory body to the U.S. Congress. We were 
established through the House of Representatives. Congressman 
Curt Weldon, I think, initiated it. The Congress passed it. The 
Senate did as well, and we're your official panel.
    The Commission was accomplished in January 1999. At that 
time there was no public commission involving this kind of 
issue. We began to go to work on it. In the first year, in a 
somewhat academic way, we established a threat assessment. We 
called it a national strategy. We, I believe, appropriately 
assessed the threat, and our most recent discussions have 
confirmed all that.
    The second year we did major policy work, recommending an 
Office of Homeland Security; recommending the formation of a 
national strategy; focusing on the Federal, State and local 
involvement, not just Federal involvement; focusing on the 
difficulty of intelligence stovepiping; and beginning to 
establish, I think, the framework for debate. That was 
presented to the Congress and to the President in December 
2000.
    In the year 2001 we focused on some major primary areas and 
began to get ready to go to business on our 3-year Commission 
when the September 11th attack occurred. This Congress then in 
its wisdom extended our Commission 2 more years.
    We have now completed our fourth Commission report. I 
believe each of you has a copy of this report that has been 
delivered to your offices. We are now beginning our 5th year 
of--the 2-year extension for our 5th year of the Commission.
    What are my opening remarks? No. 1, things have gotten a 
lot better because we do have these strategies. I think that 
the committee here is doing a real service to the Congress, to 
the public, by focusing on the plethora of the different groups 
of strategies and how they interrelate with each other and how 
that bears upon our national security. But at least we have 
strategies. We have the topics being laid out. That is a 
judgment call in itself in key and important areas. It looks to 
me like we're in large measure dealing with the correct types 
of issues.
    Our panel in its 3rd year focused our attention on the 
value and the focus of State and local involvement within the 
national strategy and how you engage State and local people; a 
major portion on health care, which has been a primary focus of 
our Commission through all of its 4 years, the importance of 
health care in the health care system; the importance of border 
controls and beginning to watch people going in and out and 
maybe protect our borders in an appropriate way; the 
appropriate use of the military, a very profound issue at this 
time as we begin to key up the U.S. military to operate within 
the homeland, an extremely sensitive and important policy area; 
and cyberterrorism. These are the areas that we focused on.
    What are the national strategies focused on at this point? 
There's an overarching strategy for the defense of the United 
States of a geopolitical position. There is a strategy to 
counter terrorism; a military plan to operate overseas in order 
to interdict and disrupt people who would attack us from 
foreign countries; a homeland security strategy; specific areas 
of weapons of mass destruction, a strategy for that; money 
laundering in order to break up the finance for people who 
would conduct these kind of military operations such as those 
we saw on September 11th; a cyberterrorism strategy; and a 
critical infrastructure protection strategy.
    This is similar to the types of issues that we laid in over 
the last 4 years. And all of the topics are beginning in a 
rough way to come together in the appropriate ways. The trick, 
it seems to me, is to strive for focus in order to make sure 
that we come together to do the right things. I think one of 
the earlier speakers said that we need to get to the proper end 
state, and indeed we do. We need to focus on what we are trying 
to get to with these proper strategies, not just simply saying 
that the Nation shall be more secure, homeland shall be more 
secure. What are we looking to achieve here? What is the 
ultimate goal of all of these strategies?
    One key, of course, is to continue to tie in the State and 
the local authorities. Federal strategy alone will not do that, 
although most of these strategies, I think, do make reference 
to the role of States and locals within the respective 
strategies, and that is certainly a positive point. But the 
truth of the matter is that you have to have a national 
strategy, not a Federal strategy, and that means that Governors 
and key mayors and key law enforcement officials all across the 
50 States have to be tied in and included within an overall 
national strategy. We have to determine from their point of 
view what they need in their respective States, how it develops 
into a statewide program, how that interacts with their 
localities, what kinds of equipment and processes are needed in 
order to support that kind of strategy, how does the Federal 
Government play that kind of role, how do you develop the joint 
types of fundings, and then how finally do you get into 
exercising and then measure the results of what that end state 
is to be.
    So, therefore, there has to be a compete focus on State and 
local and with the Federal partnership, and that is the end 
state that our Commission has focused on for several years.
    And then I think we have to ask ourselves at the end, what 
is the goal that we are trying to achieve here? Is absolute 
security an obtainable goal? Is it attainable? Historically the 
answer is probably no. This is not a unique time that we face 
here today, although the violence of the September 11th attack 
has created a trauma that only replicates itself several times 
in American history. But we have seen the previous 
assassination of President McKinley, and then so shortly 
thereafter, only a few years later, the shooting of Theodore 
Roosevelt at a political event, the shooting and killing of 
President Lincoln. One might argue that was, in fact, a 
terrorist attack in and of itself here in the homeland, the 
Oklahoma City bombing, a domestic catastrophe of tremendous 
proportions, lead up of other areas as well. But this is not 
necessarily a unique time, but we now have to gain the 
perspective to make sure that as we react to it and we put 
together our strategies and programs, that we remember the 
longstanding values that we have as Americans, and that we 
don't impinge upon any of those.
    And that primarily, of course, leads me back to the theme 
that we very frequently stress, and that is the civil liberties 
of the American people.
    It would be so easy to strive for absolute security and to 
try to persuade the American people that we are going to reach 
for absolute security and to ask them to surrender all their 
civil liberties in order to attain that end. Our Commission 
believes that would be the wrong approach, and that the goal 
here must be to gain the maximum possible security within this 
country and then to tell the American people in a 
straightforward and honest way that total and absolute security 
is not possible; to get to the maximum level of security we can 
reasonably do consistent with the values and safety of the 
people of the United States, naturally spending a great deal of 
focus on weapons of mass destruction, because that would be the 
most terrible possible violation of the security that we might 
have; but within all those goals, that we believe that the 
eight strategies are a step in the right direction.
    We congratulate this committee for going about the 
oversight work now of determining how the eight could be 
harmonized best together and work together for the national 
security, but I urge you to think closely about the value of 
making sure the States and the locals are contained within the 
national strategy.
    Mr. Shays. Thank you, Governor. It's a nice way to start 
this panel. I had forgotten that Curt Weldon had led the charge 
on this. He has been one of the heroes, I think, on the issue 
of terrorism well before September 11th, and I'm not sure he 
gets the credit he deserves. He gets a lot of credit, but I 
think he deserves more.
    Thank you.
    [The prepared statement of Mr. Gilmore follows:]

    [GRAPHIC] [TIFF OMITTED] T7702.028
    
    [GRAPHIC] [TIFF OMITTED] T7702.029
    
    [GRAPHIC] [TIFF OMITTED] T7702.030
    
    [GRAPHIC] [TIFF OMITTED] T7702.031
    
    [GRAPHIC] [TIFF OMITTED] T7702.032
    
    [GRAPHIC] [TIFF OMITTED] T7702.033
    
    [GRAPHIC] [TIFF OMITTED] T7702.034
    
    [GRAPHIC] [TIFF OMITTED] T7702.035
    
    [GRAPHIC] [TIFF OMITTED] T7702.036
    
    [GRAPHIC] [TIFF OMITTED] T7702.037
    
    [GRAPHIC] [TIFF OMITTED] T7702.038
    
    [GRAPHIC] [TIFF OMITTED] T7702.039
    
    [GRAPHIC] [TIFF OMITTED] T7702.040
    
    [GRAPHIC] [TIFF OMITTED] T7702.041
    
    [GRAPHIC] [TIFF OMITTED] T7702.042
    
    [GRAPHIC] [TIFF OMITTED] T7702.043
    
    [GRAPHIC] [TIFF OMITTED] T7702.044
    
    [GRAPHIC] [TIFF OMITTED] T7702.045
    
    [GRAPHIC] [TIFF OMITTED] T7702.046
    
    [GRAPHIC] [TIFF OMITTED] T7702.047
    
    [GRAPHIC] [TIFF OMITTED] T7702.048
    
    [GRAPHIC] [TIFF OMITTED] T7702.049
    
    [GRAPHIC] [TIFF OMITTED] T7702.050
    
    [GRAPHIC] [TIFF OMITTED] T7702.051
    
    [GRAPHIC] [TIFF OMITTED] T7702.052
    
    [GRAPHIC] [TIFF OMITTED] T7702.053
    
    [GRAPHIC] [TIFF OMITTED] T7702.054
    
    [GRAPHIC] [TIFF OMITTED] T7702.055
    
    [GRAPHIC] [TIFF OMITTED] T7702.056
    
    [GRAPHIC] [TIFF OMITTED] T7702.057
    
    [GRAPHIC] [TIFF OMITTED] T7702.058
    
    [GRAPHIC] [TIFF OMITTED] T7702.059
    
    [GRAPHIC] [TIFF OMITTED] T7702.060
    
    [GRAPHIC] [TIFF OMITTED] T7702.061
    
    [GRAPHIC] [TIFF OMITTED] T7702.062
    
    [GRAPHIC] [TIFF OMITTED] T7702.063
    
    Mr. Shays. At this time we would call on Dr. O'Hanlon.
    Dr. O'Hanlon. Thank you, Congressman and Mr. Ranking 
Member. It is an honor to be before this committee on this 
important topic on this distinguished panel. I really want to 
just make three broad sets of opening comments in keeping with 
your request that we be brief. I have a longer statement, as 
you know, for the record.
    Mr. Shays. I want to make sure, though, that you cover the 
territory that you need to.
    Dr. O'Hanlon. OK. Thank you. I do want to respond, and that 
is to your--to many of the questions that were posed to the 
first panel, and just give a couple of quick thoughts on the 
issue of how many strategies is too many and what kind of 
overall structure should we have. And I just have a couple of 
observations.
    It strikes me that you do need more than one strategy, 
because there are so many aspects to the war on terror. And it 
is hard to put all this into one document, and I fully agree 
with Congressman Janklow's comment that if you have too many, 
you lose track of them all. But if you have too few, it would 
make, I think, for an excessively dense document that might get 
weighty of its own simple detail.
    And so what I would propose is thinking in terms of three 
principle documents, and one is the National Security Strategy. 
And that has to be the lead document, has to be seen as the 
integrating document. Certainly in traditional terms that has 
been the first document that has been produced before the 
military has done its quadrennial reviews and its national 
military strategies. And then below that, the National Military 
Strategy and the National Homeland Security Strategy are the 
two natural next pillars.
    And there are certain things that are going to be left out. 
Military strategy and homeland security strategy, for example, 
don't give a lot of time or attention to economic assistance 
toward developing countries. And we all know we need to worry 
about the problem of failed states, rescuing failed states, 
because they are a concern in the war or terror. They can be 
sanctuaries for terrorist organizations, they can help provide 
resources to terrorist organizations.
    But that is part of the National Security Strategy, and I 
think President Bush--speaking of people who don't get enough 
credit, President Bush does not get enough credit for his 
foreign aid initiative, the millennium challenge account, which 
I think is a very good idea and I think needs more attention 
and more reinforcement, because we need to hold out hope to 
developing countries that they will be brought into this 
globalization procession, and that also we will prevent their 
territories from being used as sanctuary or sources of income 
for terrorists. So I commend the President on that point.
    I think there is more that has to be done dealing with 
failed states, and I've got some of that in my testimony. But 
the National Security Strategy brings in economic assistance, 
brings in intelligence operations, brings in broader economic 
strategy as well. Those things are not part of the military 
strategy or the homeland security strategy quite as much, but 
that is OK. You don't have to emphasize each and every thing 
equally. At some point there is a tradeoff between having 12 or 
15 or 20 strategies and having clarity. And I think the 
National Security Strategy can provide enough detail on issues 
like economic policy toward developing countries and 
intelligence that we don't need major additional documents.
    So again, that pyramid of three separate documents, 
National Security Strategy, Military Strategy, Homeland 
Security Strategy, for me is enough.
    Mr. Shays. I feel like I'm in church.
    Dr. O'Hanlon. And I will stick with the trinity theme and 
go on now to my two other topics. One is on the issue of 
homeland security and the homeland security strategy, and now I 
am getting more specific.
    Within this strategy I just want to make a couple of 
observations about how well this one particular strategy is 
working. It is so new, it is so important, and I think we have 
to spend a lot of time looking at it in detail. I will just 
offer a couple of thoughts based largely on the Brookings work 
that we have done in the last year and influenced by the work 
of the Gilmore Commission and others who preceded us with 
various studies.
    And first of all, I want to commend the President and the 
Congress again for a very good start after September 11th. It 
seems to me there were a lot of very important things done 
immediately after the tragic terrorist attacks to make sure 
those sorts of attacks would be difficult to be carried out in 
the future against us; a lot of work on airport security, a lot 
of work on bringing together intelligence briefings for the 
President, a number of preparations on the biological weapons 
front largely motivated by the anthrax attacks. And I think a 
lot of that work was very good, but I think Congress and the 
President got bogged down a little in 2002. I think the debate 
over the Department of Homeland Security became seen as the big 
issue. And it was a big issue, but it can't be the only issue. 
We have to worry about our actual vulnerabilities, and we can't 
wait for Secretary Ridge to, 1 or 2 or 3 years from now, when 
he finally has his shop in order, get around to then addressing 
vulnerabilities. We have to have a debate today on the homeland 
security strategy and its specifics, what it does well, what it 
does not do well.
    I think what it does well is to try to prevent the last 
kind of attack, try to prevent the last war, to use the old 
adage, about military operations. You know, people tend to 
fight the last or refight the last war. And I think we are 
getting pretty good at stopping airplane attacks, at stopping 
biological attacks. We haven't gotten as good at a number of 
other things, and let me just tick off a couple, and you are 
very well aware of them in this committee, but it is worth 
emphasizing.
    For example, private sector infrastructure. There is this 
report that just came out that tries to be remedial and talk 
about some of the things we need to do, but it is not nearly 
enough. If you look around this country, there are thousands of 
chemical production facilities which are vulnerable to attack, 
and if they were attacked, they could produce clouds of toxic 
fumes that could produce threats to population centers similar 
to the Bhopal tragedy in India in the early 1980's. You could 
have thousands of people die from chemical fumes if these 
facilities were not well protected.
    After September 11th, we did a very good job of trying to 
improve security at nuclear power plants, perhaps not enough, 
but we put quite a bit of effort into that, because there are 
only 103 of them, and we could focus on that problem. But 
meanwhile, you need to have a longer-term strategy for 
protecting chemical infrastructure. We have not really done 
that. So, the administration is trusting the private sector to 
protect its own assets, but an individual private sector owner 
or businessman, that person's incentives are different from 
society's because the individual owner is trying to make a 
profit, trying to deal with a competitor, and not very worried 
about a terrorist attack against his facility. The chances of 
that are astronomically low. So that person's incentives are to 
compete with his competitors; but as a society, our incentives 
are to make sure we're not vulnerable to catastrophic attack 
against our chemical facilities, against the trucking that 
ships a lot of these facilities, against a lot of the ships 
going into Houston and other ports that are carrying these 
sorts of chemicals.
    Chemicals I just take as one example, but it is a very 
prominent example, and one that does not get the attention of 
nuclear issues, but probably should.
    Another area within homeland security where we are not 
doing enough is the area of bolstering Customs. I think there 
was a great deal of good thinking done on Customs and the 
container security initiative last year by Mr. Bonner and 
others. A very good idea: Put American inspectors overseas and 
watch cargo being loaded before it heads toward American 
shores. The problem is we are not giving Mr. Bonner any 
resources to do this job more effectively. In the 2003 budget, 
there was no additional money, as I understand it, for this 
effort, and in the 2004 budget, Customs is supposed to get 
$60--$62 million more, not nearly enough for the kind of 
broader, more rigorous inspection regime we need.
    We inspect 2 to 3 percent of all cargo entering this 
country. It is not nearly a high enough percentage. You don't 
need to reach 100 percent, but you have to do much better than 
we are doing today.
    Another area within homeland security that is not getting 
enough attention is the surface-to-air missile threat against 
airplanes, and there has been a lot of discussion about this in 
the last few months since the attempted attack against the 
Israeli airliner. I think we need to consider government action 
to help airlines either protect themselves with 
countermeasures, or at a minimum help them and help airports 
patrol the grounds around the airport. This is a threat that 
has become very plain, and if those missiles had hit the 
airplane and brought it down, I am sure we would be responding 
much more quickly to what is a real threat around the world. 
And so we should not be taking great comfort in the fact those 
two missiles happened to miss by a small distance. They made 
the airplane feel a bump. How much more of a bump do we need? 
That's a pretty good impetus to policy right there, and yet we 
seem to be waiting for the airplane to actually be brought down 
before we make this a national priority.
    One last area within homeland security, and then I will 
wrap up on my final topic. Information technology is a very 
important area to pursue and promote. As you know, Mr. 
Chairman, there is some more money in the 2004 Homeland 
Security budget for information technology, but it really is 
not nearly enough, because today we are not able to integrate 
in a real-time basis State, Federal, local, international 
players into data bases that would look to try to connect dots. 
We can share information on suspicious individuals pretty fast, 
and that is a big improvement since September 11th. We can tell 
an airliner or somebody else, watch out for this individual, A, 
B, or C. That individual is on a terrorist watch list. That is 
a good improvement. However, we are not able to process 
information, the kind that we saw before the attacks in 2001, 
Phoenix memos, dots that need to be connected to discern 
patterns of terrorist behavior that may be emerging. We don't 
have the ability yet, in other words, to tie together these 
information systems in a large data base that's capable of 
processing and looking for patterns of behavior.
    So we can share names, but that is not good enough. That is 
a very primitive level of information and infrastructure 
sharing of data. We have to do better.
    Finally, on another matter, and I will just stop here after 
briefly mentioning the issue of preemption. And I know that 
time is out, so let me just quickly say, the preemption 
strategy is the national security strategy sort of benchmark or 
famous slogan that went along with the national security 
strategy last fall. To me, it shows that if you try too hard to 
make a splash with your national security strategy, you may get 
yourself into more trouble than you want. Sometimes it's better 
if these documents are a little more boring and understated, 
because I personally think the preemption concept is a major 
mistake as an articulated matter of national security policy. I 
think it's fine to find out----
    Mr. Shays. Why don't we debate that issue with you. OK?
    Dr. O'Hanlon. OK. I will just quickly mention one last 
sentence, please.
    For me, the problem is on North Korea. North Korea seems to 
have been influenced by this strategy. At least it's one 
possible explanation for the current crisis. And I worry that 
stating the doctrine so plainly has actually contributed to the 
crisis with North Korea. I like the logic behind the preemption 
concept, but I'm not sure the U.S. Government ought to be 
stating it so boldly and so plainly.
    [The prepared statement of Dr. O'Hanlon follows:]

    [GRAPHIC] [TIFF OMITTED] T7702.081
    
    [GRAPHIC] [TIFF OMITTED] T7702.082
    
    [GRAPHIC] [TIFF OMITTED] T7702.083
    
    [GRAPHIC] [TIFF OMITTED] T7702.084
    
    [GRAPHIC] [TIFF OMITTED] T7702.085
    
    [GRAPHIC] [TIFF OMITTED] T7702.086
    
    [GRAPHIC] [TIFF OMITTED] T7702.087
    
    [GRAPHIC] [TIFF OMITTED] T7702.088
    
    [GRAPHIC] [TIFF OMITTED] T7702.089
    
    [GRAPHIC] [TIFF OMITTED] T7702.090
    
    [GRAPHIC] [TIFF OMITTED] T7702.091
    
    [GRAPHIC] [TIFF OMITTED] T7702.092
    
    [GRAPHIC] [TIFF OMITTED] T7702.093
    
    Mr. Shays. I was trying to figure out why I liked you, and 
then reviewed your bio, and you were a former Peace Corps 
volunteer, and so that speaks well of you, sir.
    Dr. O'Hanlon. Thank you.
    Mr. Shays. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    Mr. Shays. If you could turn on your mic. Is it turning on? 
The green light should do it. If it's orange, watch out.
    Mr. Newhouse. I was about to say, I appreciate the 
opportunity to offer a few thoughts with regard to this tough 
and complex subject you are dealing with.
    Mr. Shays. Well, we appreciate you being here, sir.
    Mr. Newhouse. And I would like to make a few comments on 
our government's approach to various sources of instability as 
I see them since the attack of September 11th.
    Huge opportunities were left in the wake of September 11th. 
Stated simply, most of the world was ready and willing to 
accept American leadership. We are all Americans, proclaimed 
the page 1 head line in Le Monde, on September 12th, a 
declaration of solidarity from a most improbable source.
    In seizing the moment, the administration could and should 
have set about stabilizing the most serious sources of 
instability, the Middle East, Southwest Asia, and Northeast 
Asia. In the Middle East, they could have deployed their new 
leverage to push Israel and the Palestine Liberation 
Organization into serious negotiations. Quite clearly, Israel's 
Likkud Government expected exactly that to happen, especially 
when on October 2nd, Mr. Bush endorsed the idea of a 
Palestinian State. Two days later, Prime Minister Ariel Sharon 
warned Washington not to try to appease the Arabs at our 
expense. Israel will not be Czechoslovakia, he said. The 
administration listened. Regime change on the West Bank became 
more attractive than taking on Israel's Likkud Government and 
its allies in Washington.
    Since World War II, the Arab world has been largely shaped 
by transient passions, notably anticolonialism, nationalism, 
socialism, and Islamism. The single constant, apart from 
corrupt and/or incompetent regimes has been the Arab-Israeli 
conflict, and a perception throughout the region and most of 
the world that Washington shares responsibility with Israel for 
the plight of the Palestinian people.
    In his speech last week, Mr. Bush offered some hope saying 
that, ``If the terror threat is removed and security 
improves,'' Israel, ``will be expected to support the creation 
of a viable Palestinian State. As progress toward peace 
develops, settlement activity in the occupied territories must 
end.''
    Mr. Shays. Excuse me, Mr. Newhouse, I'm going to have you 
move the mic down a spec. Just bring it down a little bit. It's 
on.
    Mr. Newhouse. However, Mr. Bush provided no specifics. Who 
will judge whether the terror threat has been removed or 
sufficient progress toward peace has been made? A skeptic would 
say that if the recent past is any guide, Israel's Prime 
Minister Mr. Sharon will make those calls.
    On April 4 last year, Mr. Bush said, ``Enough is enough.'' 
And he added, ``I ask Israel to halt its incursions into 
Palestinian-controlled areas and to begin the withdrawal from 
those cities it has recently occupied. Israeli settlement 
activity in occupied territories must stop, and the occupation 
must end through withdrawal to secure and recognizable 
boundaries.''
    Mr. Bush also announced that he was sending Secretary 
Powell to the Middle East to push for a political settlement. 
Two days later Mr. Bush called Sharon and said: Israel must 
pull its forces out of the West Bank, ``without delay.'' And 
the White House appeared to support Secretary Powell's idea of 
bringing the parties together in a peace conference. Then Mr. 
Powell left on a 6-day trip to the region, and General Anthony 
Zinni, the President's special envoy for the Middle East, 
conveyed to Sharon Mr. Bush's call for Israel to withdraw at 
once from Palestinian cities.
    On April 9th, 3 days after the call from the President, Mr. 
Sharon said that Israel would press on with its offensive in 
the West Bank.
    On April 17th, Powell returned without the cease-fire he 
had been seeking and unable to secure a withdrawal of Israeli 
forces from the West Bank. Meanwhile, Ari Fleischer, the White 
House press spokesman, was stressing that Sharon was, ``a man 
of peace.''
    The tilt toward Mr. Sharon reached a peak of sorts on June 
24, 2002, when Mr. Bush told the Palestinian people they would 
have to replace Yasser Arafat as their leader before Washington 
would support an independent Palestinian State. Without 
mentioning Arafat by name, the President made his meaning 
clear, ``Peace requires a new and different Palestinian 
leadership so that a Palestinian State can be born.'' Until 
then, Mr. Bush has resisted the Sharon position that no 
negotiations could take place until Arafat was gone. Polls on 
the West Bank have shown that Arafat's approval rating has 
steadily declined in recent years; it spikes, however, when he 
is attacked by Sharon. They appear to need each other.
    Again, in last week's speech, Mr. Bush made the case that 
regime change in Iraq would provide the conditions for 
weakening terrorism and helping Palestinians achieve democracy. 
I disagree. The case for and against attacking Iraq now is 
complex. It should not be tied into the campaign against 
terrorism. The connection between Iraq and terrorism is, I 
think, tenuous at best. Most of the people I know who have 
followed the affairs of the Middle East over the years would 
argue that the single unchanging precondition for regional 
peace and stability is measured but steady progress toward a 
settlement of the Palestinian issue, starting with an end to 
Israel's occupation of the West Bank.
    If the United States gets too far adrift from reality in 
the Middle East, the sole beneficiary would be Usama bin Laden 
and his legatees if he is dead. Their purpose, indeed their 
raison d'etre, is to divide the West from Islam, starting with 
the Arab world.
    In the Persian Gulf, the Iranian Government reacted to 
September 11th by authorizing American search and rescue 
operations on its soil, the transit of humanitarian assistance 
and cooperation in the formation of the new Afghan Government. 
In many Iranian cities there were meetings to express sympathy 
for the victims of the attacks on the United States. Both hard-
liners and reformers denounced the attacks, and at that pivotal 
moment, Iran's reformist government would probably have been 
politically free to extend its reach to America even further. 
The combination of sensible steps by Washington on the Arab-
Israeli front and improved U.S.-Iranian relations would have 
further isolated Iraq politically within the region and, hence, 
appealed to all sides. But the administration's failure to 
respond and its harsh reaction, notably the President's axis of 
evil remark, damaged prospects for beginning to repair a 
bilateral relationship with Iran of surpassing strategic 
importance.
    Pakistan, a nominal ally, is the country that most nearly 
fits the President's profile of evil. Two of its provinces are 
controlled by Taliban and al Qaeda sympathizers. Although the 
issues that divide Iran and Pakistan have never reached the 
level of crisis, relations have worsened in recent years. 
Pakistan's heavy involvement with the Taliban is partly 
responsible. It is a bone--the Taliban is a bone in Iran's 
throat. Pakistan's Islamic schools, the madrassas, have become 
training grounds for terrorists and other radical groups in 
much of the Muslim world.
    For now there may be little that the Musharraf government 
can do about the chaos and anarchy in parts of the country, but 
it can and should be held to account for its remarkable 
decision to make possible North Korea's highly enriched uranium 
program. Pakistan is known to have provided much or most of the 
program, weapons design, gas centrifuges, materials to make 
centrifuges, data of the sort that would enable the customer to 
avoid having to test its devices. The two-way traffic between 
Pakistan and North Korea involving ballistic missiles and 
nuclear weapons technology could have a dangerous ripple 
effect.
    The campaign against terrorism generated a sense of common 
purpose, but at another level also became divisive. Most of Mr. 
Bush's advisors regard the first and best answer to threats to 
security as lying in preponderant military force. European 
governments along with most others see military force as a 
complementary tool in the campaign against terrorism, less 
essential than a soft-power mix of intelligence, law 
enforcement, border, and financial controls.
    Terrorism is generally seen as part of a larger problem, 
not a single problem. Thus far, however, the administration's 
concern with the causes of terrorism has been minimal, in my 
view. Its focus instead has been on identifying and destroying 
the terrorist threat, ``before it reaches our borders,'' if 
necessary, acting alone and using preemptive force. This 
thinking is contained in the novel doctrine laid down by the 
administration last September.
    Other governments assume, doubtless correctly, that in its 
reliance on massive military power, the new doctrine downgrades 
alliances. They also worry that the administration may not feel 
bound by the body of international rules and restraints that 
developed after World War II. Taken at face value, the new 
doctrine justifies preventive war waged without allies and 
without U.N. Sanction.
    A doctrine of preemption that relied on very high-quality 
intelligence to identify an impending attack well in advance 
and then head it off would not raise eyebrows, but the Bush 
doctrine is based instead on prevention and preeminence; that 
is, taking military power to a level never before seen, one 
that would so intimidate all parties that no one would even 
consider an attack of any kind against the United States. 
Threats to American interests would be not just discouraged, 
but precluded. ``Full spectrum dominance,'' was a term for it 
in defense circles. Anticipatory self-defense is a phrase that 
Secretary Rumsfeld has used.
    In practice, such a doctrine harbors many risks. If I am 
banging on too long, please cut me off, Mr. Chairman.
    Mr. Shays. Keep going.
    Mr. Newhouse. It exaggerates the role and utility of raw 
military power. The government could find itself unable to 
carry out programs in other realms, unable, for example, to 
cooperative effectively with other governments to combat 
terrorism. Special Forces and smart weapons can help in that 
battle, but other tools starting with good intelligence and 
good police work are more important.
    No matter how good the performance of the Intelligence 
Community, surprises are probably unavoidable. Thus, measuring 
performance by the standard of prediction is unrealistic and 
can damage the standing, morale, and performance of 
intelligence agencies. They are engaged in not winning a war 
against terrorism, but in managing it, restricting the 
activities and options of hostile forces. The Bush doctrine, if 
taken seriously, would mean that prediction would become the 
measure of performance, because a prevention-based strategy 
would require sustained and timely collection of the kind of 
intelligence that is rarely available, least of all in a form 
that connects all the dots.
    Effective intelligence collection must be conducted 
bilaterally, but with a wide array of countries. After 
September 11th, offers of help, large and small, poured into 
Washington from around the world. They were rejected. Another 
opportunity lost. Accepting these offers would have harmed 
nothing, generated enormous goodwill, and, most important, 
helped at another more important level. What the United States 
has needed from other countries, then as now, is information, a 
process through which intelligence may be shared with countries 
best equipped to penetrate terrorist organizations and cells. 
Many of these countries took part in the sanctions against 
Iraq, and most of them have experienced serious difficulties of 
one kind or another with the terrorist groups located in the 
extensive region they share.
    Terrorism may be contained if intelligence services and 
police agencies acquire the habit of cooperating closely with 
each other and suppressing their competitive instincts and 
preference for acting alone. The United States would be the 
chief beneficiary of such activity, first because it appears to 
be the primary target of al Qaeda and sibling terrorist groups; 
second, because it lacks adequate human resources for gathering 
the intelligence it needs; and third, because its ability to 
eavesdrop on global communications is declining. The rapid 
growth of commercially available technology is reported as 
allowing for the creation of all but unbreakable computer 
codes. Fiber-optic lines give off no electronic signals that 
can be monitored.
    Mr. Chairman, that concludes my statement. Thank you.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Newhouse follows:]

    [GRAPHIC] [TIFF OMITTED] T7702.095
    
    [GRAPHIC] [TIFF OMITTED] T7702.096
    
    [GRAPHIC] [TIFF OMITTED] T7702.097
    
    [GRAPHIC] [TIFF OMITTED] T7702.098
    
    [GRAPHIC] [TIFF OMITTED] T7702.099
    
    [GRAPHIC] [TIFF OMITTED] T7702.100
    
    [GRAPHIC] [TIFF OMITTED] T7702.101
    
    [GRAPHIC] [TIFF OMITTED] T7702.102
    
    [GRAPHIC] [TIFF OMITTED] T7702.064
    
    [GRAPHIC] [TIFF OMITTED] T7702.065
    
    [GRAPHIC] [TIFF OMITTED] T7702.066
    
    [GRAPHIC] [TIFF OMITTED] T7702.067
    
    [GRAPHIC] [TIFF OMITTED] T7702.068
    
    [GRAPHIC] [TIFF OMITTED] T7702.069
    
    [GRAPHIC] [TIFF OMITTED] T7702.070
    
    [GRAPHIC] [TIFF OMITTED] T7702.071
    
    [GRAPHIC] [TIFF OMITTED] T7702.072
    
    [GRAPHIC] [TIFF OMITTED] T7702.073
    
    [GRAPHIC] [TIFF OMITTED] T7702.074
    
    [GRAPHIC] [TIFF OMITTED] T7702.075
    
    [GRAPHIC] [TIFF OMITTED] T7702.076
    
    [GRAPHIC] [TIFF OMITTED] T7702.077
    
    [GRAPHIC] [TIFF OMITTED] T7702.078
    
    [GRAPHIC] [TIFF OMITTED] T7702.079
    
    [GRAPHIC] [TIFF OMITTED] T7702.080
    
    Mr. Shays. Dr. Krepinevich, you have a lot of pressure on 
you because you really have three colleagues who preceded you 
who have outstanding statements. But I am comfortably able to 
tell you that I am sure you will do well, because I took your 
statement home last night, and I thought it was a wonderful 
summary of the issue. But we do need to get you the mic, don't 
we?
    Dr. Krepinevich. Thank you, Mr. Chairman. Like my 
colleagues, I will summarize my remarks.
    Mr. Shays. Like most of your colleagues.
    Dr. Krepinevich. First, let me applaud the subcommittee, 
for tackling this issue. It really is the missing link. 
Strategy is about connecting ends and means. We know the ends 
we want to achieve: the defeat of international terrorism. And 
we know the means that we are going to apply, in the terms of 
the budget and the resources and the capabilities that we are 
putting to the task. What we need to worry about is that 
although the means are impressive, we only get to spend them 
once. If we choose the wrong strategy--or if we choose the 
right strategy, but do not have sufficient resources to 
implement it--what we end up doing is not only wasting 
resources, but also wasting time, neither of which can be 
recovered. With that in mind, I would like to offer some 
comments on the administration's set of strategies.
    I do not believe that there is anything inherently wrong 
with having a hierarchy of strategies as long as they are 
comprehensive, consistent, and, of course, as long as the 
strategy is effective. What I think is somewhat remarkable is 
that we actually have public statements about strategy in 
wartime. For example, after Pearl Harbor I don't recall 
President Roosevelt saying, it's Germany first, which was our 
grand strategy, going after Germany before Japan. I don't 
remember anyone saying that General MacArthur would be pursuing 
an island-hopping strategy, avoiding Japanese strong points, as 
his approach to solving the problem of defeating Japan in the 
Pacific. Football coaches don't advance or announce their game 
plans in advance, nor do chess masters before a chess match. So 
I do think that--and I would assume, and, quite frankly, I 
would hope that there are some key aspects of our strategy for 
waging war on terrorism that are not public, that are 
classified, to include some of the capabilities and forces that 
support this strategy.
    On the other hand, we have to find some way of squaring the 
circle, because Congress is responsible for the power of the 
purse, they are responsible for the war powers of this country. 
And so Congress must identify a way to assess the 
administration's strategy. I have no solution for this dilemma.
    With respect to the strategies themselves, I think there is 
much to applaud in terms of the effort on the part of the Bush 
administration. We need to recognize that this is not just a 
variation of former strategies. In fact, what we are dealing 
with here is a dramatically different kind of threat or 
combination of threats: the prospect of rogue states developing 
weapons of mass destruction and perhaps having to these weapons 
fall into the hands of terrorist organizations. Certainly this 
is about as big a shift in the kind of threat environment as we 
have seen since the early days of the cold war.
    Second, I think this set of strategies is clearly an effort 
to provide at least some point-of-departure strategic guidance 
both in general terms and in terms of the key specific areas 
that may define the competition, such as cyberspace, the issue 
of financial laundering and so on.
    If that is the glass half full, I think we also need to 
examine the glass that's half empty. If you look at historical 
experience, we only have a few data points. We did not really 
come up with a strategy for dealing with the Soviet Union, a 
comprehensive strategy, arguably until 1950, when you had NSC-
68.
    We also found that we had to constantly evolve the strategy 
to reflect changing circumstances. As you pointed out, Mr. 
Chairman, we had in 1953 the Solarium group meeting, when 
President Eisenhower took office, to revise and revisit the 
strategy that had been laid down several years earlier. So, 
again, this is not a situation where you come up with a 
strategy overnight. It is not a fast-food approach to strategy. 
This is going to require a lot of work, a lot of hard, 
intellectual work to address a lot of the questions, quite 
frankly, raised by you and by my colleagues here today.
    I would point out also that both NSC-68 and the Solarium 
group were classified undertakings.
    The strategies that I reviewed, to the extent that I could, 
given that at least one of them was classified and, as our 
colleagues pointed out, there were several of them just 
released recently, do lead to some unanswered questions. This 
gets back to my point that further work is going to be needed. 
I will just raise a few here for your consideration.
    One, as Mr. O'Hanlon said, is this issue of preemptive 
attack. If we really do decide to pursue this policy, or this 
strategic pillar, against terrorists or rogue states, we are 
going to have to get a lot better at things like surprise, 
stealthy deployments, operating along short time lines, and 
operating over long distances. I don't think you can conduct a 
surprise attack with a precursor being months' long 
negotiations with allies as to whether or not you can use their 
forward bases. So, initiatives by the Defense Department such 
as converting Trident submarines to provide for the stealthy 
insertion of Special Operations forces or the increase in the 
size of Special Operations forces, would be consistent with 
that kind of strategy.
    Of course, we are also modernizing our Air Force to deploy 
large numbers of short-range aircraft to forward bases which 
may not be available, at the same time developing no new long-
range air capability.
    So, again, I think at some point you have to begin to look 
at the strategy and the means and see where the links and the 
disconnects are and, again, to paraphrase from my colleagues, 
to see if the dots all connect correctly.
    In terms of port security, I think the issue was raised by 
Michael O'Hanlon. Where is the emphasis? Is it at the port of 
origin where the goods coming to our shores originate? There 
has been talk in the Pentagon about a maritime NORAD, about a 
naval force that will intercept suspicious cargo ships the way 
our missile defenses are meant to intercept incoming warheads. 
Or is it at the port of entry? Or is it a combination of these 
things? If so, which has priority? And over what time will we 
phase in these various elements of our strategy? What is the 
standard of performance? How many cargos are we supposed to be 
able to intercept and check out?
    So, in the area of port security, it seems to me that we 
know there is a danger there. We know there is a threat. We are 
devoting means to address it but not quite clear what the 
linkage is between the means and ensuring that we achieve our 
ends.
    If you have a strategy that recognizes that deterrence 
doesn't work against terrorists and you may not be able to 
intercept every terrorist attack, than a big part of your 
strategy has got to be damage limitation, or what we call 
consequence management. How do you limit the damage of a 
successful attack? Because that can go a long way toward 
defeating terrorism. Where is the responsibility? With the 
Federal Government? With State governments? With local 
governments?
    For example, once an attack occurs in an American city, is 
it that city's responsibility alone to deal with it? I would 
suspect that we would want to mobilize resources and flow them 
toward that city. Well, who controls those resources? Can the 
Federal Government put the arm on other cities' resources now 
at its disposal to go to the city that's been attacked? Have we 
built in the transportation assets that allow us to rapidly 
reinforce the city that's just been subjected to attack? Is it 
that way across the board?
    Or do we recognize that, for example, in the case of first 
responders, those people who are on the scene first, you are 
not going to be able to reinforce them. Either they are going 
to be able to do the job quickly, or it's going to get out of 
hand. Have we really thought through the process, the linking 
of ends and means, to make sure that we have an effective 
defense in dealing with consequence management?
    There are other matters that deserve consideration. The 
role of our allies. Our alliances were formed in a different 
era, when there was much more common agreement about what the 
principle threat to our security was. We find ourselves needing 
allies more in the global war on terrorism but perhaps in some 
cases being able to rely on them less. Certainly we want to 
rely on them for different things.
    There's a new division of labor. We don't want tank armies 
so much as we want good intelligence, for example. So how do we 
devise a new division of labor, and what does that say about 
our strategy? What resources can we free up to accord to other 
priorities?
    I will just speak very quickly on cost-imposing strategies. 
It's kind of an arcane term, but it's a strategic term. Bottom 
line: they spend $1 million, we spend $100 billion. That's an 
awfully effective strategy. Part of our strategy, part of our 
strategic development, has got to answer how are we going to 
off set their ability to pursue cost-imposing strategies on the 
United States.
    In summary, I would say that the administration's efforts 
represent an important initial effort to address the most 
dramatic shift in our threat environment since the early days 
of the cold war. The effort is both impressive and, I would 
argue, incomplete. We are only at the beginning of a major 
process, primarily intellectual, to come to grips with this 
threat and make sure that we have a strategy that can 
effectively apply our limited resources to achieve the very 
worthy ends that we seek.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Dr. Krepinevich follows:]

    [GRAPHIC] [TIFF OMITTED] T7702.103
    
    [GRAPHIC] [TIFF OMITTED] T7702.104
    
    [GRAPHIC] [TIFF OMITTED] T7702.105
    
    [GRAPHIC] [TIFF OMITTED] T7702.106
    
    [GRAPHIC] [TIFF OMITTED] T7702.107
    
    [GRAPHIC] [TIFF OMITTED] T7702.108
    
    [GRAPHIC] [TIFF OMITTED] T7702.109
    
    [GRAPHIC] [TIFF OMITTED] T7702.110
    
    [GRAPHIC] [TIFF OMITTED] T7702.111
    
    [GRAPHIC] [TIFF OMITTED] T7702.112
    
    [GRAPHIC] [TIFF OMITTED] T7702.113
    
    [GRAPHIC] [TIFF OMITTED] T7702.114
    
    [GRAPHIC] [TIFF OMITTED] T7702.115
    
    Mr. Shays. I really appreciate all four of your 
testimonies. I am so eager to jump in, but I am going to call 
on Mr. Janklow to start.
    I would just make a comment that will tell you where I'm 
coming from. At this table, we had an individual who was a 
doctor of a major medical magazine; and he said, before--he 
said, I want to put something on the record. And this is what 
he basically put on the record. He said, my greatest fear is 
that a small group of dedicated scientists within a country can 
create an altered biological agent that could wipe out humanity 
as we know it. That to me was a very real statement of why we 
can't wait for a lazy country to step in and stop a small group 
of scientists from creating a biological agent that could wipe 
out humanity as we know it.
    In other words, it's not just those countries that seek to 
work with terrorists but those who tolerate them. And there is 
not a chance in heck that I would think that we would wait.
    Which gets to a topic that you had brought up, Dr. 
O'Hanlon, and all of you did, and that's the whole issue of 
preemption. My view was that what we would have over the course 
of the next few months and maybe years is, with the world 
communities, how do we define when preemption has to happen?
    So I took an advantage that I don't often do as chairman to 
just jump in here, but, Mr. Janklow, you have the floor for 10 
minutes.
    Mr. Janklow. Thank you, Mr. Chairman; and thank all four of 
you gentlemen for your testimonies.
    Dr. O'Hanlon, you were specific with respect to certain 
areas. When we look at the structure of America, I will call it 
the infrastructure of this country, given the way history's 
developed or we have developed, but for the military bases, the 
banks, the jails and prisons, nothing has been built secure. 
Everything, 100 percent of our country is open. Closing those 
doors and getting into a public safety mentality is just an 
incredible cultural and physical shift for us. What do you 
think is the threat assessment with respect to our public 
utilities, specifically the electrical grids? All we have are 
fences that say high voltage, keep out, where we have the 
transformers. Yet disabling a transformer is probably one of 
the easiest things in the world to do.
    There isn't a backlog of transformers in this country on 
the shelf. In the event someone were to start to bring the 
electrical system down, you could make whole areas of this 
country uninhabitable for months. Were it to be done in the 
wintertime, it is incalculable how we could deal with it and 
maintain our standard of living or not turn on each other. Have 
you ever had a chance to assess the question with respect to 
the electrical utilities or the natural gas utilities where 
every so many miles they come up out of the ground, with the 
pumps and the monitoring, and it would be a no brainer just to 
throw a log chain around them and drive off, pulling them 
apart. Do you have any comments, sir?
    Dr. O'Hanlon. Those are very tough questions, Congressman. 
I share your understanding and your concern on electricity in 
particular because it's so hard to fix. My understanding--and 
I'm not an expert in this area--but it could take several 
months to repair some of the kind of damage one might imagine.
    Mr. Janklow. That's correct.
    Dr. O'Hanlon. During that period of time, as you say, the 
economy and even the basic ability to ensure heat and other 
needs for people would be really at risk.
    I think the way you have to prioritize homeland security, 
because, as you pointed out, we don't want to protect every 
restaurant and every movie theater in this country, at least I 
hope we don't have to get to that point, but you have to 
prioritize. And I think the way you do is to say major loss of 
life, major economic damage, or major damage to the 
institutions of this country such as government. Those are the 
sorts of things we have to focus on most intently. If there is 
a plausible risk in one of those areas, you should think hard 
about doing something about it if you can.
    As Andy Krepinevich says, there may be situations where the 
cost is just too high. But I think you have identified a couple 
of areas where the cost is not that high, and it's a matter of 
scrutinizing our vulnerability, and I think you've identified a 
couple of important ones that I should have added to my list.
    Altogether, by the way, I think we can make very good 
progress on about a $50 billion a year Federal budget for 
homeland security. So, we're moving in the right direction, but 
we're not there yet.
    Mr. Janklow. Thank you.
    Mr. Newhouse, I gathered from your testimony you're rather 
critical of the way things are going under the current 
administration; and I notice from your resume that you were a 
senior policy advisor to Strobe Talbott with respect to Europe. 
But I was wondering, did he take your advice on how to deal 
with Europe during the time you were an advisor to him?
    Mr. Newhouse. You can say, yes, sometimes, but rarely. 
Because I found myself in persistent low-intensity conflicts 
with the State Department bureaucracy. As I'm sure you know, 
when you go up against the organized bureaucracy, the cards are 
weighted against you. But it was fun. I wasn't there very long. 
I was there for the last 3 years of the Clinton era.
    Mr. Janklow. And, sir, if I could ask you with respect to--
a lot of your testimony dealt with our relationship vis-a-vis 
Israel, our policy, the policy enunciations by the President. 
Do you know of any strategy that any President has ever 
employed with respect to Israel that worked, or the Middle 
East, Israel vis-a-vis its relationship with the Palestinians, 
given the uniqueness of the threat to Israel, the constant?
    I mean, I just--I was there last week--2 weeks ago on an 
International Relations Middle East Subcommittee trip; and it 
was amazing, just amazing that, to go into grocery stores, you 
go through magnetometers. You go into malls, you have the wand 
put over you. You can't go into public parking. The cost of the 
society for public protection, none of it contributing to 
economic growth, is an unbelievable drag. And that country is 
so small you could put six of them inside my State. I just--I 
can't even imagine a United States with that kind of drag.
    My question is, do you know of any administration that's 
had an effective policy with respect to the peace aspects of 
that area?
    Mr. Newhouse. Well, I would say there were two. First, the 
second Eisenhower administration. After the Suez crisis began--
and I no longer remember what became of that effort. Maybe it 
was the political calendar. I don't remember.
    But I think the most striking example of this was the 
Presidency of George W. Bush after the Gulf war, starting with 
the Madrid Conference. What transpired during the Madrid 
Conference when he had all the key players around the table led 
eventually to the Oslo Peace Process. I think the Oslo Peace 
Process set in motion other agreements, and they kind of 
sustained what appeared to be a sustained process which ended 
abruptly in 1995 with the assassination of Prime Minister 
Rabin.
    I would submit that the time between the collapse of the 
Soviet Union and September 11th was a kind of parenthesis 
during which the one event of lasting historic importance would 
have been the assassination of Rabin, because that ushered in 
instantly a Likkud government, and things began to go from bad 
to worse.
    Now it's not as if the blame falls largely on Israel. I 
mean, it also falls with great weight on the Palestinian 
Liberation Organization and its leadership. But I think the 
Palestinian moderates by and large understand what's been 
happening to them, and they--and since it has been happening to 
them in the most injurious and painful way, they would like to 
change things, including changing the leadership. They can't 
change their leadership so long as you have got this nexus of 
political heavyweights starting with the Likkud party and 
government that lashes out at the PLO leadership and 
quarantines it, makes a hostage of its leader, says that you 
have to change this.
    Mr. Janklow. Sir, if I can ask you, let's just assume that 
in this country we were dealing with an element, a group of 
people, where the leader funds--contributes funds toward those 
that are blowing up our people and our facilities, where they 
contribute support, public rhetoric to give aid and comfort to 
those that are trying to drive us out of the area. I'm not 
being overly sympathetic to the Israeli position as much as I 
am to say, put yourself into their mentality and then deal with 
what Yasir Arafat and his group have done with respect to the 
safety in the area or the neglect. It's not benign neglect, 
it's far more than the benign, and one can understand the 
activity that individuals take as self-preservation.
    You know, I visited the American military when--Patriot 
missile units that were in Israel a week ago, and I frankly was 
dumbfounded at the attitude that all of those soldiers had, the 
men and women had, all the way down to the lowest enlisted 
ranks as to what their mission was and how important they felt 
they were for the security and stability in that particular 
area.
    I am just wondering if you have any insight, sir, as to--
coming back to homeland security. What is it that we can do in 
this country to make it safer? I mean, obviously, September 
11th, we found out how vulnerable we were. To the extent 
anybody's committed and was willing to commit suicide, you can 
wreck a powerful lot of damage over and over and over. What it 
is that we are not doing that we ought to be doing 
specifically?
    If you could list the things, Mr. Newhouse.
    Mr. Newhouse. Well, I began my statement by suggesting what 
I thought we should do first and foremost in bringing stability 
or greater stability to the region--and I mean the entire 
region. That is to restart the Middle East Peace Process.
    Mr. Janklow. No. No. I mean the United States, here.
    Mr. Newhouse. Yeah. But only we can do that. Nobody else 
can restart the Middle East Peace Process.
    Mr. Janklow. So you are suggesting----
    Mr. Newhouse. The Europeans can't do it. The quartet, that 
is to say, the combination of the United Nations, the European 
Union, Russia, they cannot do that without the other member of 
the quartet, the United States, taking the lead. It is just 
wholly unrealistic.
    Mr. Janklow. So what you are suggesting, sir, is to the 
extent that the Middle Eastern Peace Process gets started or 
gets on a better track, things will be safer in the United 
States?
    Mr. Newhouse. Yes, indeed. Because I think that not only 
does the region use the Arab--the Palestinian-Israeli issue as 
the principle--one of the principle tools for generating 
recruitment in the region, but I think that the larger part, 
most of the Islamic world is profoundly sympathetic to the 
Palestinian cause.
    Mr. Janklow. Would that explain the explosions then, for 
example, in Bali, in Indonesia?
    Mr. Newhouse. I don't know, sir. Partially. Because--I 
mean, I think these things are really all connected. What is it 
that inspires an organization like al Qaeda? It's more than one 
thing. I mean, I think the leadership probably wants to divide 
Islam from the Western world if it can. But it uses whatever 
grievances, tools, that it has available to it; and this is 
certainly a big one.
    Mr. Janklow. Thank you.
    Mr. Newhouse. Sir, can I just make one--with response to 
one of your other questions, when you said that these people 
are being terrorized and being killed, I'd just make two 
comments. The number of people being killed over--since the 
Second Intifada began, there's been a great disproportion, a 
tragic number of Israeli citizens have been killed, that's 
true. But a considerably larger number of Palestinians have 
been killed in the process and a great number of Israelis, if 
they were sitting here, Israelis whom I know personally, would 
strongly agree with what I've said here. But they feel 
frustrated because they have very little control.
    Amos Elon, one of the great Israeli writers, wrote 
recently: Israel's military power increases on a daily basis, 
and its security diminishes on a daily basis, because Israel is 
a small state with a low birth rate that lives in a huge sea of 
Arabs.
    Mr. Turner [presiding]. Thank you, Mr. Newhouse.
    Mr. Gilmore, would you like to comment on some of the 
questions?
    Mr. Gilmore. Mr. Chairman, respectfully, it is a policy 
decision about whether the foreign policy of this country is 
going to shift with respect to support of Israel or their 
policies. That is not really the topic that we are discussing 
here today. We are discussing here today the question of what 
actions the Congress can focus on in order to try to make the 
homeland more secure. I think that was the essence of 
Congressman Janklow's ideas about this.
    I'm concerned, frankly, about some of the things that I'm 
hearing here today. I think there is a risk here that we are 
being led down the path of trying to address all 
vulnerabilities in the Nation. You cannot address all 
vulnerabilities of the Nation. Again, that was also said from 
the dais a few moments ago.
    This Nation is a free country. It carries within, 
therefore, inherent vulnerabilities. But vulnerability is not 
threat. Threat is different. Threat is the things that the 
enemy has the capability of attacking, and they don't have the 
capability of attacking everything. They don't--the motivation 
to attack things and what things are vulnerable, and that is 
the threat, and that we can address. We can address that. If we 
tried to address everything that anyone could imagine, any 
terrorist could imagine, we are driving ourselves into being a 
financially exhausted martial state, which is exactly what the 
enemy probably would like to see us get to.
    Instead, we have to address that, and then I think you go 
to a little different question, which is, how are we doing it?
    We are setting up a major bureaucracy with the Department 
of Homeland Security, but what are we doing it for? That is the 
point to keep the eye on the ball about here. We don't want to 
get so tangled up in the administrative efforts to get it all 
to coordinate and work together we lose track of what we're 
trying to do, which is to address the potential threats of this 
country in a reasonable and prioritized way and to address what 
we really think the potential threats are.
    And for what purpose are we doing that? I don't think it's 
to make ourselves a martial state. I think at some point it's 
to return to some sense of normalcy in this country, not a 
country like was being described someplace where we are 
constantly watched and constantly going through security 
measures at the grocery store and things like that, but to get 
back to the point where we protect ourselves to the greatest 
extent possible from reasonable, foreseeable risks and threats 
and then get on with our lives as free people. Otherwise, the 
enemy's won.
    Mr. Turner. Thank you, Governor.
    Now, Mr. Bell, you will have 10 minutes.
    Mr. Bell. Governor, I couldn't agree with you more when you 
suggest that there is no way possible for us to do everything 
to keep the homeland safe. I have said for a long time that you 
could take every security precaution known to man, some even 
unknown at this particular point in time, and still have 
someone willing to kill themselves in order to kill other 
people. That you're not--there are going to be instances where 
you can't defend against that.
    I do believe, though, that after September 11th we live in 
a new world in some negative ways but also some rather positive 
ways, one being that there has been an awakening and there is a 
sense of alertness in America that has never been seen before. 
Things that not too long ago would have probably been taken for 
granted, an unattended piece of luggage in a crowded facility, 
will now be pointed out to a security guard. I daresay if an 
individual like Timothy McVeigh went and tried to purchase an 
inordinate amount of race car fuel that would be reported to 
some authority. If someone signed up for a flight class and 
expressed no interest in taking off or landing the aircraft, 
that type of suspicious behavior would be reported.
    What I am curious about is that the only way that works and 
that sense of alertness leads to greater security is if there 
really is communication between the various law enforcement 
authorities; and I hope that is something positive which has 
come out of September 11th, too, because we have all heard the 
stories of turf wars between various law enforcement entities, 
the breakdown in communication, information not being 
transmitted to where it should be going. I'm curious as to what 
your feelings are on that particular subject, whether we really 
have seen better communication between the different levels of 
law enforcement.
    Mr. Gilmore. Congressman, of course, it has to be addressed 
on two levels, one is technological and the other is cultural.
    The technological part is the part we still have to reach 
for, the ability to have some interoperability to address the 
spectrum issues, to get local responders some capacity to have 
the ability to use their intercommunications, even to allow 
some spectrum to allow people in the private sector to be able 
to have some communication capacities within themselves; and 
that remains I think ahead of the Congress. But that's the 
easier part.
    But that's the easier part. The more difficult part is the 
cultural problem and that is getting intelligence organizations 
to communicate with each other. This is an issue we first began 
to address in the year 2000 with our report to the Congress on 
December 15, 2000, where we pointed out that there was not 
information passing back and forth laterally among Federal 
intelligence organizations--FBI, NSA, CIA, all the rest of 
them. And more importantly, there was not information traveling 
vertically up and down the line between Federal, State and 
local people.
    We pointed out that while within the Federal system, 
clearances are granted routinely to elected officials in the 
Congress, there are no clearances granted routinely to people 
in the State bureaucracy who actually have the primary 
responsibility to deal with these issues. I was the Governor of 
one of the two States directly attacked on September 11th, New 
York and Virginia were the two States directly attacked, and 
based upon that, I know from personal experience that there was 
difficulty with that.
    In this past report, our fourth annual report, we 
recommended that there be a fusion center of intelligence 
information that would also have a role to play with Federal, 
State and local people all within the fusion center, the 
communication back and forth between Federal organizations as 
well. And a form of that was adopted by the President in his 
State of the Union address, and we are optimistic that will be 
structured in a way that it can be made to work.
    There is a major issue of how you are going to conduct 
counterterrorism activity in the United States to gain that 
information to go into the fusion center from within the 
homeland. That remains controversial even on our commission, 
but we think that progress is in fact being made. I was briefed 
at the White House recently by Admiral Abbott, the acting 
Homeland Security adviser to the President, who has pointed out 
that there are efforts being made to create those channels up 
and down the line between Federal, State and local people.
    Last point, condition orange has been widely criticized 
when it came to pass, but it does have some value, value in 
communicating with the terrorists, value in communicating with 
the American people so that there is not a shock if there's 
another attack, which would cause a stampede, an overreaction, 
which I think we are all concerned about; but also that 
condition also triggers automatic communications between 
Federal, State and local people which I thought was maybe the 
most significant point.
    Mr. Bell. Dr. O'Hanlon, Chairman Shays pointed out that he 
liked you when he realized that you had served in the Peace 
Corps. I liked you when you started making my case for me on 
port security, and I greatly appreciate that. And when I was 
home a couple of weeks ago, I started talking to people about 
this, basically to raise the flag and see who might salute it.
    But I am curious where we go from here, because it is a 
very legitimate point that when you look at the number of 
petrochemical plants we have located along the Houston ship 
channel and realize the vulnerability of those plants, and I 
hope the point you are trying to make is, right now, you can 
look at that and say, well, that is your problem or that's 
their problem. But if there is any kind of strike against that 
type of plant, then as you point out, it becomes our problem. 
So, given that, I am curious as to what you would recommend.
    And one thing that I've considered--haven't actually 
proposed it yet, because I want to get input from other people 
such as yourself--but should we be looking toward some type of 
subsidy program for those types of facilities, to provide a 
certain amount of Federal assistance, because I do agree with 
you there, there is a line and there is an economic line that 
they will reach.
    I think most of the plants in my district have taken 
extraordinary measures. There's one chemical plant that I 
visited that I thought I was going to have an MRI conducted 
before I gained admittance. They go through extraordinary 
precautions, but there are limits. And before they are going to 
go to the full extent, I think they're going to be looking to 
the Federal Government for some kind of assistance; and I am 
curious as to what your feelings on that would be.
    Dr. O'Hanlon. Thank you, Congressman.
    Also wrestling with the point that Governor Gilmore made 
about how we don't want to get so caught up in homeland 
security that we bankrupt the country, it's a tough balancing 
act to work out. In our Brookings study, we came to a couple of 
conclusions. One of them is at the Federal level, we do need 
some more capability in institutions like the Coast Guard and 
in some of the port security funding to develop port security 
plans that, right now, I think Federal money needs to go up. It 
doesn't necessarily need to go up astronomically. The Coast 
Guard budget already is increasing, but I think the Coast 
Guard's fleet needs to get bigger. That's one piece of it, but 
it's not really your primary concern.
    Your primary concern is actual site defense at the place 
we're talking about. And there, I think--personally, I am not 
strongly opposed to the idea of subsidies, but I am more 
intrigued, just based on my research and discussions with 
economists at Brookings, by an idea they came up within the 
course of our study, which is, require a certain minimal level 
of regulation, minimal level of security legislatively, but 
leave the primary effort to the private sector; require many of 
these facilities to have terrorism insurance, and then the 
insurance market will work to give people incentives to adopt 
best practices because they can offer lower rates to people who 
are adopting better security practices.
    So that's a partial answer. It still doesn't get to your 
real concern of how do we make sure that these facilities 
aren't themselves bankrupted because we are asking them to 
adopt a more secure workplace. If the level of Federal 
regulation or State regulation is relatively modest, and we 
say, you have to do certain basic things, have monitoring of 
all your major entrances, have a certain number of security 
guards on duty, have a certain number of tests per year of your 
response capability, and then leave it the private-sector 
insurance markets to help give these people incentives to 
develop best practices, that may work better than either 
Federal subsidies. Because there are so many facilities to 
subsidize, I don't know how you draw the line or simply 
trusting the private sector to get it right on its own.
    One more point, if I could bring in a separate example and 
I am sorry to go on, but skyscrapers, I worry about anthrax 
being introduced into the air intake of skyscrapers. As far as 
I know, there is still no Federal requirement or State 
requirement in most places that these air intake systems be 
elevated above street level or otherwise protected.
    We don't want to fortify every building in the country and 
we don't want to mandate this happen immediately, because it 
would cost too much. But I think for large buildings, there 
needs to be a certain push by the Federal Government for these 
buildings to get more secure on how they handle their air 
circulation systems. And then, again, the insurance markets can 
give them incentives to do even more, and they can choose for 
themselves whether they can afford the additional measures like 
filtering systems in their air, circulation devices and that 
sort of thing.
    I am not yet prepared to endorse subsidies because of the 
sheer number of facilities and the sheer cost of doing so, but 
I haven't ruled it out either, and maybe there are certain 
places we have to at least keep it in mind if the economies of 
these plants and facilities--if their budgets are so stressed 
by additional security they simply can't do it on their own, we 
may have to at least give them a temporary helping hand.
    Mr. Turner. Governor Gilmore, I appreciate your comment 
concerning the sharing of information between local, State and 
Federal Governments. I served as mayor for the city of Dayton, 
and we actually were one of the few cities and communities that 
actually held weapons of mass destruction exercises prior to 
September 11th. Attorney General John Ashcroft attended those 
exercises, and it was phenomenally helpful to our community 
when September 11th occurred, because we knew who was in charge 
of what; what streets were to be closed. We didn't run to the 
phone book to figure out what agencies we needed to coordinate 
with; there had already been an effort to put together 
coordination with the FBI, the sheriff and the like.
    Recently, I attended a presentation by NCR concerning the 
application of business data collection software to homeland 
security issues, and one of the things that they discussed is 
that the business process of handling data and information 
technologies starts with the question ``what information do we 
need to know in working backward in designing your systems.''
    So the question I have for you, Governor and Dr. O'Hanlon, 
is, in this process of making certain that we are sharing 
information, what should we be doing or how is it going--in our 
efforts to define what we need to be doing, what information is 
it that we need to make certain that we avail ourselves of as 
we look to sharing that?
    Mr. Gilmore. I think that's a new topic. The issue of what 
type of data, I suppose you're really referring to, if you're 
talking about a National Cash Register-type of presentation, 
CR-type of presentation----
    Mr. Turner. It was interesting in the discussion because 
they talked about, do you start looking at what data you have 
and start sharing that, or do you start with the question of 
what do we need to know and what levels do we need to know it. 
And they clearly indicated, even from the business process, and 
they believe from the government and homeland security process, 
that there should be a process of defining what are those 
things that we believe that we need to know as we go through 
setting up our systems and sharing that information.
    Mr. Gilmore. There has certainly been a lot of discussion 
going on about the DARPA program that the Pentagon was 
attempting to conduct, the total information awareness. It was 
depicted at its inception as being so broad that it just scared 
the living daylights out of everybody. And I think this 
Congress decided to put the clamps on that somewhat. So that 
was, I think, maybe a starting effort to determine what you 
need to know, and it may have been defined so broadly that it 
wasn't going to go anywhere.
    So it may be that if we can go through a definition 
process, we can preserve civil liberties and the privacy and 
anonymity of people as Americans at the same time we are 
providing for the capability of our counterterrorism people to 
focus on the right kinds of individuals or people. But that's a 
definitional process that still has to be gone through.
    I think it has to be handled with the greatest care, and 
the reason is that today we live in an America that has two 
elements. I am not sure it is unique, but yeah, it might be. 
One is the American media to fix and manage our problems. If we 
say we have this problem here and this great managerial class 
called United States of America 2003 is going to try to find 
some technological or managerial approach to fixing the 
problem, that would go to the question of how you define that.
    And the second, that is probably unique in the history of 
mankind, is this enormous technological society we live in and 
the capacity to gather data and to hold data and to keep data, 
which does threaten the potential privacy and character of the 
values of the American people.
    Do you have to strike that balance? I think it is entirely 
a policy question. You will be led, Congressman, to the sense 
that it is a technological question and a managerial question. 
It is not; it is a policy question of how much you are going to 
permit to be accumulated in order to preserve the security of 
the country. That is a judgment call based upon the values you 
bring with you to the Congress.
    Dr. O'Hanlon. Congressman, in this dichotomy you put forth, 
do you take what information you have and process it more or do 
you go out and look for more? You have to do both, but I want 
to emphasize the second piece. I want to do the equivalent of 
Phoenix memos as much as we can.
    So what I mean by that, I would like to see local, State 
and Federal law enforcement authorities sharing information. If 
we happen to see 10 places in the country where there are 
people casing airfields on the same day or two, you want to 
know that it's not just one isolated place, and if it happens 
in one place in South Dakota and one place in Virginia and one 
place in Maryland, no one ever knows that it's happened at all 
these places simultaneously.
    What you want to do is piece that information together or 
have it in some kind of a data base where somebody with a 
creative idea can write a computer program and say, am I seeing 
any suspicious behavior that is systematic?
    So you want to have data entered into your National Law 
Enforcement Information System that allows that kind of 
correlation analysis to be done. And whether it is medical 
supplies being stolen, airfields being cased, crop dusters 
being rented, there are a lot of things that can fall into the 
category of flight training--that we know very well from 2001--
that you would want to know about, especially if they were 
happening at more than one place at a time, suggesting some 
kind of a conspiracy. And that's where you need to generate the 
data and probably more of the data than we have today, get it 
into the data bases and then allow some kind of central 
analysis through Homeland Security's Threat Analysis System.
    That is the sort of thing I want to see much more of. And 
that is going to require cultural improvements and 
technological improvements, as Governor Gilmore said before. I 
think the Federal Government is going to have to ultimately 
support improvement in information technology at the State and 
local level much more and maybe even subsidize some of it.
    Mr. Turner. Mr. Newhouse, your comments were very 
interesting. Some of the analysis, I was concerned, certainly 
was so one-sided that it left out elements of what we all know 
is occurring.
    You state that one of the issues that needs to occur is 
starting with an end to Israel's occupation of the West Bank. I 
didn't notice in your comments the call for the ending of 
suicide bombing attacks. Your statements appear to be solely 
placing responsibility on what we believe are the responsible 
states and democracies, instead of the parties that are doing 
very egregious acts; and I would like some of your comments 
about that.
    Mr. Newhouse. They certainly are egregious and self-
injurious. They are also, if you like, a response to what they 
see as the illegal occupation of their territory and the 
settlement activity, which everyone has said, including 
President Bush, has got to stop.
    There are also acts being committed by, if you will, 
rejectionist groups who are also terrorist groups. And the 
leadership, Mr. Arafat's leadership, which--his is really an 
awful leadership. It is corrupt and it doesn't advance the 
interest of the Palestinian people in any way, but because it 
is weak, inherently weak, it is unable to do anything about 
these acts. It has actually tried and failed.
    These acts you speak of are being committed by the 
terrorist groups, and these are not terrorist groups that 
export, but they are devoted entirely to harming Israel. But 
there is very little from here that we can do about it, other 
than--in my opinion, except for doing what I suggested that we 
do, which is restart the Middle East peace process.
    Mr. Turner. I would take it that you would not indicate 
that you believe that the suicide bombings are advancing the 
cause of a Palestinian state or resulting in a greater 
likelihood of that occurring?
    I mean, it sets back, obviously, the peace process. And 
when their occurrence is neglected, in your comments, as merely 
a responsibility of--or the setbacks are a result of Israel's 
reaction, I think it doesn't provide us with the information 
that we need to come to a conclusion as to what really the 
United States needs to be doing.
    Mr. Newhouse. Well, I would agree with you that the acts of 
terrorism committed against Israel are certainly from the point 
of view of Palestinian interests and are deeply 
counterproductive. As of now, there seems to be very little 
that anyone can do about that directly. The Palestinian 
leadership has been unable to do anything about it; the 
Israelis themselves are unable to do anything about it because 
retaliation simply invites more of the same.
    So it is kind of a demonic process going on, and as I said, 
there is very little, if anything, that the United States can 
contribute directly to heading it off, stopping it. But I 
think, in a larger sense, generating some stability out there 
and getting the sides together in a peace process, I think, is 
really the only weapon available.
    Mr. Turner. In your comments, you also talked about your 
concern about the preemption doctrine having an impact of 
exacerbating the threats in the United States, and you ended a 
paragraph with ``Terrorism may be contained if intelligence 
services and police agencies acquire the habit of cooperating 
closely and with each other and suppressing their competitive 
instincts and preference for acting alone.''
    When the intelligence services and police agencies are 
cooperating, what action would you think would result from 
that?
    Mr. Newhouse. Well, if they are cooperating, then I think 
we are in very good shape. The problem is getting intelligence 
agencies and police agencies to cooperate systematically.
    Frequently, they will cooperate. Going back to 1984, the 
Los Angeles Olympics--this may have been a first, maybe it 
wasn't the first, but we do know at that time the CIA and the 
FBI worked together very closely. They were under a lot of 
pressure from the White House to do exactly that. Not only 
that, but they were cooperating with their counterpart agencies 
in other governments, so that in the days preceding the Los 
Angeles Olympics, the FBI was able to assure Members of this 
body at that time that nothing would happen. They categorically 
said, nothing will happen at the Los Angeles Olympics; we've 
got these groups so penetrated, we know what they're thinking 
about before they think or what they're going to do before they 
do.
    Much was the same at other major events: Y2K was an 
example, or the Gulf war when we rolled up 30 different plots 
to commit terrorist acts. The problem is, when agencies, both 
within our country and in their dealings with other countries, 
ramp up, in a phrase, for--to make sure nothing happens at a 
given time, the tendency then is--after nothing has happened 
and the event is over, is to ramp down and go back to the so-
called ``stovepipe method'' where information is gathered at 
one level, or low level, if you will, and it drifts upward to 
the top and then it stops there, it isn't transferred.
    Because knowledge is power, and an agency that has 
information that perhaps another agency doesn't have and uses 
that information to advantage, sometimes in the budgetary 
process--anyway, it's counterintuitive to cooperate.
    Mr. Turner. Thank you.
    Chairman Shays.
    Mr. Shays. Thank you very much, Mr. Chairman. I am very 
eager to get into this dialog. I love this panel, and I guess I 
am fascinated by the issue because we fought for 4 years about 
this.
    You know, in the beginning, Governor Gilmore, it was almost 
theoretical because, you know, we just didn't come to grips 
with it fully until September 11th, but this is what I want to 
first start out with.
    After September 11th the eight National Strategies to 
Combat Terrorism--this is what I am hearing from this panel--
that after September 11th, the eight National Strategies to 
Combat Terrorism are a good start, but there is more work to be 
done.
    And then, Dr. Krepinevich, I look at your statement and you 
say, you know, the National Security Act of 1947, it took until 
1958 before it was structured. The structure was refined, and 
then you put in parentheses ``and even then it was only 
partial.'' We looked for a number of years before we had a 
reorganization that fit into this, in a sense, the strategy.
    Now, so--and you had Eisenhower in 1952. I mean, you had 
all these stages of trying to improve this response to what was 
then the Soviet Union.
    So what I want to know is, do you think this is a good 
starting point, if you all agree, and that we need more--more 
work needs to be done. And these are the areas I sense you are 
saying: Interrogation among the strategies; intelligence 
strategy, big question mark because that was pointed out as not 
existing. Should there be an intelligence strategy, or is there 
one that we just don't sense? Ensuring that our national--not 
Federal strategies; I think, Governor Gilmore, that was your 
point, interesting concept of national versus Federal. And the 
need for more clear measures of effectiveness.
    So that's where the work needs done. And would you agree 
and would you want to speak to it, and would you want to add a 
fifth or sixth?
    Dr. Krepinevich. I think we are off to a good start; we're 
better off than we were a couple of years ago. I'm not sure 
what to compare this to.
    Are the strategies integrated? I think, as certain members 
of this panel have indicated--let me speak for myself. I think 
there are certainly gaps that have raised a number of issues 
that we have not come to grips with.
    Do we need an intelligence strategy? I think if we are 
going to do what Governor Gilmore suggests, which I think is 
probably a way to get around the cost-imposing strategy that 
the terrorists intentionally or unintentionally are pursuing, 
the way to do it is to get them, as opposed to trying to 
provide an airtight defense ourselves.
    Doing that certainly is going to require expert 
intelligence. We have underinvested in human intelligence of 
the kind that is typically crucial to breaking down these 
organizations.
    Mr. Shays. So would your point be that we need an 
intelligence strategy added to this list of strategies and then 
integrate it?
    Dr. Krepinevich. Certainly you need a strategy for how you 
are going to employ your terrorist assets. It should fall out 
of your overall strategy. For example, if you are going to 
emphasize preemption, then I think the weight of your 
intelligence effort is going to be overseas. If you are going 
to emphasize a layered defense of the continental United States 
and Alaska and Hawaii, then more of your intelligence efforts 
may be at our borders and internal to the United States, which 
require a different kind of intelligence.
    So I do think the kind of strategy you choose begins to 
inform how you are going to apply your intelligence assets and 
what kind of priorities you are going to place on them.
    In terms of measures of effectiveness, I think we've only 
begun to scratch the surface on this. For example, I think the 
National Strategy for Combating Terrorism says, we'll know that 
we've won when Americans feel safe and secure and free of a 
terrorist threat. That's probably true, but it doesn't really 
give the person who has to execute a strategy much of a sense 
of what they need to do to try and achieve that end.
    I would say two strategic measures of effectiveness that I 
would certainly consider are: one, what is an acceptable level 
of damage for the United States to incur? If it's impossible to 
provide airtight security over the United States, what's an 
acceptable level of damage and can we achieve it? What 
strategic alternative can give us the best prospect of 
essentially suffering an attack and having an acceptable level 
of damage?
    The other is our freedom of action, because success is not 
only our ability to defend ourselves here at home, but it's our 
ability to protect our vital interests overseas. If we feel 
under such risk of attack here that we forgo our ability to, 
for example, protect critical areas whether it's East Asia, the 
Persian Gulf where we have vital interests, then we will have 
been deterred because of our vulnerability here at home or our 
ability to deal with the threat abroad.
    So I do think that in terms of measures of effectiveness, 
again you can go up and down the line, whether it's dealing 
with cyber attacks----
    Mr. Shays. Bottom line, there needs to be a lot more 
improvement and the whole issue of whether we're effective or 
not in determining how we'll even measure effectiveness?
    Dr. Krepinevich. Absolutely.
    Mr. Shays. Mr. Newhouse, do you want to speak to the issue 
of improving integration? Do we need an intelligence strategy, 
national versus the Federal issue and measures of effectiveness 
and any other strategy?
    I am asking you, Mr. Newhouse. If you don't want to speak 
to it, I will go to Dr. O'Hanlon.
    Mr. Newhouse. Mr. Chairman, I think we spent a lot of time 
on this today, and I think Governor Gilmore and Dr. O'Hanlon 
would have a lot more that would be useful.
    Mr. Shays. Let me get to you in another question.
    Dr. O'Hanlon, one thing I say about a Peace Corps volunteer 
is, we were taught to understand the people that we lived with, 
and there were things that we did and said that when you 
understood their culture, you were able to interact and 
communicate with them.
    Is there a role that needs to be played here in our 
strategy on terrorism as well? I am jumping ahead--do you know 
what I just asked you?
    Dr. O'Hanlon. It's a tough question. Clearly the answer is 
yes. You need to understand your partners and the needs of 
other countries. I don't know how to build it into a formalized 
process like this with today's focus on security strategies.
    Maybe what I would say is that the National Security 
Strategy, which really should be at the pinnacle and does have 
some discussion of the needs of developing countries, to take 
one category of overseas partners, it sort of gets cheapened 
when there are all these other strategies that are out there. 
And I worry about the proliferation of documents, because we 
should all still be reading and developing and debating the 
National Security Strategy, and we did for awhile in the fall.
    And then preemption was the flavor of the month for a few 
weeks, and now we're on to other documents. And there's a lot 
of stuff in the National Security Strategy that has nothing to 
do with preemption, as you well know, largely this economic 
assistance issue for developing countries who are very 
important partners of ours in counterterrorism.
    So it's not a very clear issue.
    Mr. Shays. I kind of got you off the topic here. I was 
eager to share a bias that I have here without thinking it 
through.
    Let me ask you to address the issue--the eight strategies 
are a good start, better integration. Do we need an 
intelligence strategy--national, not Federal--and the whole 
issue of effectiveness. Comment on any of those?
    Dr. O'Hanlon. I will comment on a couple of them. I had the 
opportunity to at least tangentially talk about a couple of the 
others already.
    The issue of national versus Federal response, it does 
occur to me that we need to spend more time thinking about the 
State and local role. Obviously, Governor Gilmore has more 
experience than I do. But I, for example, have some contacts at 
the L.A. city council who were very concerned about the delay 
in the first responder fund over the last year. And Washington 
let down the States and the local governments in having this 
stalemate on that.
    And one can look for different people to blame, but the 
bottom line is, I think, Washington didn't get the job done 
until too late. We spent a whole year when we should have been 
dealing with first responder capacity, improving that, and we 
really didn't do much.
    In fact, I'm told that in L.A. city council debates, 
advocates of doing more were often stymied because others would 
say, Washington is going to help us pretty soon, we don't have 
to find the money, just wait and the $3.5 billion is going to 
start to come our way. And people who wanted to find local 
funds had their own argument for finding local funds undercut 
by this promise from Washington that was not fulfilled for a 
full year.
    So maybe--you know, I hate to call for more strategies, but 
maybe we do need to get the Federal versus national distinction 
a little more prominent in our thinking and spend more time--I 
was delighted to see the Governors put some pressure on 
Washington a couple of weeks ago, and I think we'll need more 
of that.
    Mr. Shays. Governor Gilmore--and I will take my next round 
to talk about the whole issue of multi--unilateral, and this 
whole issue of preemptive.
    Mr. Gilmore. Congressman, it is a good start. We didn't 
have a national strategy before September 11th, of any kind; 
now we have eight strategies. And I guess I would like to think 
about them a little bit and the Commission will think about 
them a little bit. I believe that will be a topic we will 
address in this 5th year for the Congress and for the President 
and try to think through that.
    I think we should make sure they don't contradict each 
other or that they don't place different emphases. But I think 
we're going to find that these are--supplement each other. Some 
of the strategies like the cyber and so on like that are points 
of emphasis, and I am not sure that I see them as something 
where you have to try to conglomerate them into one overall 
strategy. I think it might work out all right, but we will look 
at that.
    The intelligence piece is really tricky. This is very, very 
difficult. We have placed a great emphasis on this all of our 4 
years that we have been in existence and recommended that 
stovepiping be broken through and fusion center be created and 
the culture of separation be broken down between all these 
different agencies.
    The trick is that you do all that and you run the risk of 
contaminating the society by looking over the shoulder of 
regular people out there who are just trying to live their 
lives every day. This is tricky. It means that we all believe 
that you have to do effective sharing of information to get at 
the bad guys, but at the same time, you have to find some 
method to not be looking over the shoulder of the good guys.
    This is a very tricky challenge--national, not Federal, 
absolutely. And I think that this is the real, maybe one of the 
focuses. I would say to you, Congressman Shays, that the danger 
here is, we are going to get so caught up with how you put the 
agencies together and the Department together, that you 
implement everything, that we lose some focus and momentum 
toward actually doing the things that are going to be 
necessary. I am uneasy with the idea that every witness who 
comes before you for the next year is going through a list of 
vulnerability that he sees within his own State and then, of 
course, naturally demand money to go into that State to take 
care of that vulnerability. That's not a very good approach.
    Instead, you have to find an all-hazards type of approach, 
one that really focuses on enabling the States to create State-
oriented plans in cooperation with their localities so that 
instead of worrying about any individual chemical plant, you 
enable your localities and your States to observe that plant, 
all the plants, all the railroads, all the airlines, and enable 
them to be watched in a reasonable way and to respond if an 
attack does occur and to circumscribe the potential attack.
    The key issue is implementing that, really not worrying so 
much about the organization as implementation of the program 
to, in fact, get out here and to get proper funding in 
accordance with the proper strategy, in accordance with a 
proper State plan and make sure that they are properly 
equipped, enabled, and they know who is on first and that it's 
properly exercised and ultimately measured.
    Mr. Shays. Mr. Chairman, I would love to come back. When 
the Governor has had a chance, I would love to get into the 
issue of preemption.
    Mr. Janklow. Go ahead and then I'll go.
    Mr. Shays. Dr. Krepinevich, do you agree with Dr. O'Hanlon 
that a policy of preemptive self-defense should be more 
implicit than explicit?
    Dr. Krepinevich. I agree with him to the extent that, the 
option of preemption is nothing new. For example, in the 
Solarium Study you cited, one of the three groups explicitly 
looked at conducting what was called preventive war against 
China. President Kennedy also explored in great detail and 
actually engaged the Soviets in discussions about a preemptive 
attack on China's developing nuclear facilities.
    Certainly, President Clinton debated with his security 
advisers the prospect of conducting a preemptive attack on the 
North Korean reactor at Yongbyon. So this is not new; it has 
always been an option in our strategic arsenal.
    I think perhaps by stating it as boldly as the President 
did, it might have garnered some unwanted attention on the part 
of the administration.
    On the other hand, I think it's also necessary to point out 
to people that the last big threat that we faced, the Soviet 
Union, was a threat that we felt could be deterred; and so we 
put a lot of our eggs in the basket of deterrence. And that is 
why we had public statements of strategy, because again we 
wanted to get into the minds of the Soviets. We wanted them to 
understand that any unacceptable action on their part would 
produce catastrophic consequences for them.
    Well, what do you do when you can't deter a group that can 
inflict substantial damage on your country? You have to begin 
to reweigh your balance of options. And this administration has 
argued for preemption--which is really preventive war in the 
case of Iraq--and I'm not quite sure how you preempt somebody 
you're already at war with; we are already at war with 
terrorists--but at any rate, I think you've got to prepare the 
American people for the fact that we are going to be acting 
perhaps quite differently than we have in the past. And the 
reason is because our traditional reliance on deterrence has 
been eroded.
    And you have to prepare the American public and you have to 
make the case to its elected Representatives for their support 
to develop the capabilities, because they are not identical to 
the kinds of capabilities you would want for a posture of 
deterrence.
    Mr. Shays. Governor Gilmore, would you speak to this issue 
next? I would just preface it by saying, I think this is a huge 
issue that there has to be lots of debate about.
    Dr. O'Hanlon, I don't come down on your side of the 
argument because it strikes me that the world community has to 
know that they can't allow a small group of dedicated 
scientists within their borders to do something that could wipe 
out humanity. We have to be honest with our own folks and say, 
this isn't--this needs to be stated explicitly, because this is 
the world you live in. It's a different world.
    So I am giving you my answer to it, but I'd be happy to 
have you comment to it, Governor.
    Mr. Gilmore. Congressman, I think we have an obligation to 
be very precise on our threat assessment before we decide to 
take serious military action. The intelligence community ought 
to be able to give us some testable advice about any particular 
risk. The chance of a dedicated group of scientists someplace 
creating a bio weapon that can destroy humanity is remote, so 
you should be cautious.
    Mr. Shays. Why do you say, it's remote?
    Mr. Gilmore. It's hard to do. All of the information that 
our commission has gotten is that it's extremely difficult to 
get these weapons, extremely difficult to weaponize them and 
extremely difficult to deliver them. We were not prepared to 
rule out a weapon-of-mass-destruction attack on the United 
States, but in the very first year, we assessed the likelihood 
of a conventional attack on this country as being highly 
probable, the chance of a weapon-of-mass-destruction attack on 
this country as being highly improbable, not completely beyond 
the pale; and that's why we have considered it on a continuous 
basis as we have gone on.
    Our most recent threat assessment contained in our fourth 
report changes that analysis not one whit. It's just very 
difficult to deliver those kinds of weapons, and we should be 
cautious about governing policy along those lines.
    Mr. Shays. It's difficult if you are not willing to carry 
it yourself. But if you're willing to carry it yourself, it 
becomes a lot easier.
    Mr. Gilmore. If you can get it.
    Mr. Shays. There are two parts. But if you are willing to 
infect yourself and others who are very willing to, you know, 
be blown up in an airplane that hits a building, it strikes me 
that the reality becomes very different.
    Mr. Gilmore. It's very difficult to get those weapons. It's 
very difficult to create those weapons.
    It's very difficult to get smallpox, for example, very 
difficult to weaponize it. If our suggestions are put into 
place, particularly on the health side--which has been the 
greatest extent of our work, by the way, for the 4 years has 
been the health piece and the public health system and the 
ability of hospitals to deal with this--you could contain those 
kinds of attacks, should they occur. But they still remain 
highly unlikely compared to that which terrorists can get, 
which are explosive devices, hijackings, attacking vulnerable 
points. That is very likely and has of course, been borne out.
    I think your question with respect to this, I think 
September 11th is driving and coloring the policy decisions 
that the Congress is making and the executive branch is making. 
The threat seems so much more real after September 11th in 
terms of the potential attack, which then leads us to the 
analysis that if you allow either a terrorist organization or a 
foreign country to continue to develop these kinds of weapons, 
and with the visceral fear we now have in America with this 
kind of attack, then that leads more toward a policy of 
preemption, the notion being that we can't allow someone to 
develop that kind of weapon and put us in that kind of 
position.
    Even if they can't get the weapon here, which they probably 
can't, they could get it around their neighbors, and then, in 
that position, upset the entire balance of a major region where 
the national interests of the United States are at stake. This 
is the analysis, I believe, of the President.
    Mr. Shays. Thank you, Mr. Chairman.
    Thank you, Governor.
    Mr. Turner. Do you have any additional questions?
    Mr. Janklow. Let me pick up on where Congressman Shays left 
off on the comments that some of you panelists made.
    Governor Gilmore, it's extremely difficult to manufacture 
these, there's no question about that. But when a State 
sponsors the research and the manufacturing, just exactly like 
has gone on historically in the Soviet Union, what has gone on 
in North Korea and clearly what is going on in Iraq.
    I mean, we can all argue and will continue to argue what is 
or isn't present in Iraq. But after the inspections started 
back in the 1990's and after several years and after Saddam 
Hussein's son-in-law came out of the country and then others 
talked about what was inside the country, all of a sudden the 
world--there was an admission, there was anthrax in the country 
in very substantial quantities and research going on.
    There was smallpox within the country. There was no candid 
admission, but I don't think there's been any intelligence 
service from any country that hasn't understood that there has 
been smallpox research going on in Iraq.
    Clearly, there was research with respect to risin and some 
of the other types of weapons of mass destruction.
    You don't have to wipe out the human race in order to wreck 
it, especially when you live in as sophisticated a society and 
economy as we have. September 11th is a classic example of the 
hundreds of billions of dollars, the price we're paying for 
those particular incidents taking place.
    Our country has had a long history of explosions: antiwar 
efforts blowing up buildings at the University of Wisconsin; as 
I recall, the Symbionese Liberation Army [SLA], back a couple 
of decades and explosions they were doing; things that some 
other groups were involved in. Europe clearly had the Red Guard 
and all of those types of things. Japan has had the incidents 
with respect to poisonous gas.
    But the point is, it doesn't take much in a society to 
change the standard of living, to change the culture.
    You keep talking about--very eloquently, Governor, about 
how we just have to evaluate all this and then we have to make 
policy decisions. But the fact of the matter is, no one who 
drafted our Bill of Rights, or subsequently that has dealt with 
it, ever had in mind the kinds of terrorism or the kinds of 
wanton acts that human beings would do to one another with 
respect to deliberately inflicting diseases and those types of 
things. So, I mean, we have a tremendous challenge, as you keep 
saying all the time, where do we draw that line?
    I think hoof and mouth disease, although it has been with 
animals, is a classic example of how easy it is to spread--for 
example, smallpox is not a difficult disease to spread. 
Clearly, it's done by contact. But to the extent that people 
are as mobile as they are in today's world, again if someone is 
willing to die, to infect themselves with smallpox and they're 
willing to die, they can have a huge amount of contact with 
others, like at airports or public arenas, what have you, 
before they reach the point where they are no longer capable of 
being a bomb themselves.
    So after having said all of this rhetoric, my question to 
you and to you, Mr. Krepinevich, is what is it--what is it that 
should be expected to us? If you're a citizen out there, what 
is it they should expect of us to be able to do--is there 
anything we can do in the legislative sense? Is it our 
responsibility to talk about it? What is it that should be 
expected of us?
    Mr. Gilmore. It's a very great policy question. I don't 
think that the American people should expect of their 
legislators that they are going to provide them complete 
security from all imaginable attacks and terrorism. I don't 
think the legislature can do that. It's unrealistic to hold you 
accountable for some diseased mind and some idea that somebody 
might come forward with--and, you know, it doesn't even have to 
be a weapon of mass destruction. It can be a bomb in a local 
McDonald's in downtown St. Louis.
    Mr. Janklow. It could be snipers.
    Mr. Gilmore. And I think we have to begin to go through the 
education process that says that we are going to assess the 
risk in a realistic way. We're going to take the appropriate 
measures that are realistically based upon those threats, those 
realistic threats; and then we are going to get on with our 
lives and understand that we're going to live like we have 
always lived. And I think that's part of the answer of both 
expectations.
    I mean it's clear that you don't have to have weapons of 
mass destruction to wreck a society. I think the society is on 
a hair trigger right now, and I think we need to back away from 
that a little bit.
    The agricultural terrorism--by the way, I want to throw in, 
since you raised it, Congressman, that we have a whole chapter 
here on agricultural terrorism, so we are not excluding any 
possibility as a weapon of mass destruction, hoof and mouth 
disease or any other potential attack.
    But we think there's an obligation to reasonably assess the 
threats in a realistic way. Try to avoid--in a perfect world, I 
suppose, trying to guard against everything for fear that if 
you miss something and something bad happens, then some 
commentator or some newspaper is going to criticize you and say 
that you didn't think of that.
    Mr. Janklow. That's what they do, though.
    Mr. Gilmore. We can't think of everything. And we have to 
be honest about it with the American people that we owe an 
obligation to reasonably assess the threats, put together a 
national strategy and make sure all the resources of Federal, 
State and local people are drawn to it, and we all understand 
what it is, we're properly funded, not crazily funded, and then 
put it into place; and then build this and then explain to the 
American people that life has never been risk free and go on 
from there and ask them to live free lives.
    Mr. Janklow. Dr. Krepinevich.
    Dr. Krepinevich. To come full circle, again, Congress has 
the responsibility of the purse to provide the means. Congress 
is also responsible for declaring war. So I think it's 
appropriate that Congress pass judgment on the strategy, which 
essentially is, how we are going to go about dealing with this 
particular threat to our security?
    So what does this mean? I will count off a number of things 
that I think Congress has to look for. One is, do we have an 
adequate statement of the character of the threat? Is the 
threat a renegade group that we're talking about in terms of 
international terrorism, or is it a popular movement?
    If it's a popular movement, then it takes on the 
characteristics of an insurgency; and an insurgency is a 
popular movement that has got a fundamental level of support 
among a specific group of the population. If this is a movement 
in the Arab world, for example, or in the Islamic world, then 
it's not essentially a police action. It's an action that at 
some point if you are going to get rid of this brand of 
terrorism, you are going to have to go after the root causes of 
why these people are doing what they're doing.
    And it seems to me their objective is to get the U.S.' 
influence out of their part of the world, and in a sense, to 
keep Americans from exporting their culture, to stop being 
Americans in a sense.
    So what is the character of the threat that we're dealing 
with? What is the goal? What do we wish to accomplish? What are 
the means?
    And, again, your responsibility is to get a sense of 
whether the means can actually be provided. Are we willing to 
make that kind of a national commitment to ``X'' billions of 
dollars year after year after year because, as we know, the 
President said: that this is a protracted conflict which we're 
in.
    Preemption, strategists will tell you, buys you time. When 
the Israelis attached the Osirak reactor in 1981, they bought 
themselves time. What do you do with that time? That has got to 
be a critical part of your strategy.
    Metrics, again, how do we measure progress, not just in one 
area, but in a number of areas. But I think that is if we have 
these multiple strategies then we ought to have performance 
metrics.
    Mr. Janklow. Don't you think--and I am cutting you off just 
a little because of time, but don't you think when Congress, 
when all of America, focuses like they did after September 
11th, which we all agree was a focal point for us, and then we 
all agreed we needed a homeland security-something, and then we 
get hung up and Congress goes home for Christmas and everybody 
just takes time off while we discuss civil service protections 
for people, doesn't that really--and I am not questioning the 
impact it has on individuals that are employed in the 
government. I'm not. But doesn't that really trivialize it for 
someone out there in Timbuktu, America, with respect to what it 
is, the sense of urgency we are trying to convince them we're 
dealing with?
    And then we still haven't funded it. Now they're all 
screaming, where's the money? We told them we would give them 
the money. We're not giving them the money. Doesn't this really 
fly in the face of what we call a sense of urgency?
    Dr. Krepinevich. I think certainly there needs to be a 
sense of urgency. One of the political wags opined that the 
situation is critical, but not serious and in a sense you could 
argue----
    Mr. Janklow. Where I come from we call that a distinction 
without a difference.
    Dr. Krepinevich. Again, the years 1945 to 1950 when we 
developed a containment strategy, we were not at war. We were 
not being attacked. We did not have military forces engaged in 
combat.
    We certainly need that sense of urgency. And I couldn't 
agree with you more. The question is, what is it going to take 
to get that sense of urgency?
    Mr. Janklow. We don't have it, and we expect the public to 
give--we are privy to folks like you coming before us to give 
us information. But out in the hinterland, they don't get that. 
They will get a snippet of this. They will get a paragraph of 
this in some third rewrite of an AP story.
    I'm not being critical. I'm just saying, it isn't fair to 
them in order for them to drag their politicians to make policy 
decisions.
    Mr. Turner. Mr. Chairman, do you have any additional 
questions?
    Mr. Shays. I would like to thank you, Mr. Chairman. I would 
like to thank the witnesses for their participation today and 
particularly to thank you, Governor Gilmore, because when we 
set this up, you could have asked for a separate panel. It 
would have made it not as interesting, and by your 
participating with the other three panels this way, it makes it 
more informative. I appreciate you not pulling rank like that.
    I would like to thank the rest of you--just a tremendous 
job.
    Mr. Turner. Well, I would like to thank the panelists also 
and ask if you have any additional comments or statements you 
would like to be included in the record. Do any of you have any 
additional comments?
    Mr. Newhouse. I remained silent during this brief 
discussion, but it seems to me, rightly or wrongly, there isn't 
any sense of prioritizing this enormous range of threat.
    The so-called ``threat of terrorism'' has a number of 
elements. And there was discussion just a few minutes ago about 
focusing the public--making the public more aware. Seems to me 
the public's attention has been focused, but it has been 
focused on Iraq. And Iraq is a real threat, ugly threat. The 
issue, really--and it's debated and there's a case to be made 
either way, but the case is whether it's an imminent threat, or 
if it isn't an imminent threat, how imminent. Is it more 
imminent than say the interrelated threat from al-Qaeda and the 
Arab-Israeli quarrel. Or Pakistan and the interaction between 
Pakistan and North Korea, the fact that this technology 
exchange between--could result in the North Koreans selling 
nuclear technology to this one and that one, anyone who is 
prepared to buy it. It is also the case that while we are 
debating a lot of this, that is, to say what to do about Iraq, 
that India and Pakistan will shoot their way to the head of the 
agenda.
    So there's a lot to worry about. But I myself don't get any 
sense of prioritizing the range of threats.
    Mr. Turner. If other members of the panel have no 
additional comments, we thank you again and we will be 
adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]


</pre></body></html>
